<html>
<title> - NONPROLIFERATION, ARMS CONTROL, AND POLITICAL-MILITARY ISSUES</title>
<body><pre>[Senate Hearing 106-264]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-264

 
     NONPROLIFERATION, ARMS CONTROL, AND POLITICAL-MILITARY ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 57-687 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Gottemoeller, Hon. Rose E., Assistant Secretary of Energy for 
  Nonproliferation and National Security, Department of Energy...     4
    Prepared statement of........................................     7
Newsom, Hon. Eric D., Assistant Secretary of State for Political-
  Military Affairs, Department of State..........................    12
    Prepared statement of........................................    15

                                Appendix

Responses of Assistant Secretary Newsom to questions for the 
  record submitted by Senators Biden and Kerry...................    33

                                 (iii)



     NONPROLIFERATION, ARMS CONTROL, AND POLITICAL-MILITARY ISSUES

                              ----------                              


                        TUESDAY, APRIL 27, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 2:44 p.m., in room SD-562, Dirksen 
Senate Office Building, Hon. Jesse Helms (chairman of the 
committee) presiding.
    Present: Senators Helms, Biden, Kerry, and Feingold.
    The Chairman. Good afternoon. I am the late Jesse Helms. 
The committee will come to order.
    The committee's hearing today, of course, as everybody here 
knows, will be devoted to a discussion with Assistant Secretary 
of State Eric Newsom and Assistant Secretary of Energy Rose 
Gottemoeller--is that roughly----
    Ms. Gottemoeller. Yes, sir.
    The Chairman. That is in the ball park. Regarding various 
arms control, nonproliferation, and political-military issues.
    Now then, at the outset, I am obliged to make clear my 
concern with the State Department's reluctance to approve a 
sale to Taiwan of two defensive radar systems. And I view 
support for these sales by the administration as a litmus test 
for the administration's adherence to the legal requirements of 
the Taiwan Relations Act, which has just seen its 20th 
anniversary.
    Now, Taiwan, quite reasonably, has requested much-needed 
and well-deserved help from the United States regarding early 
warning and air defense systems. Specifically, Taiwan has asked 
for the long range early warning phased array radar.
    Now then, when China fired missiles off Taiwan's coast in 
1996, Taiwan was caught completely by surprise. Our ally did 
not even know that those missiles had been fired until several 
minutes after they splashed down. Now, this is particularly 
troubling since one of China's primary objectives is to use 
short-range missiles to disable Taiwan's air force on the 
ground before the planes can get into the air.
    Accordingly, Secretary Newsom, I will urge that you ensure 
that this radar be sold to Taiwan in a timely fashion and with 
the requisite capabilities. In addition to increasing the 
survivability of Taiwan's air force, it would give Taiwan's 
citizens 5 to 10 minutes advance warning in order to take cover 
from an impending missile attack.
    Now then, the second item that I understand the State 
Department also is concerned about is the evolved advanced 
combat system for naval anti-aircraft defense. A recent 
Pentagon report to the Congress on the military balance in the 
Taiwan Strait makes clear that China is making rapid strides in 
establishing air superiority over Taiwan, and this defense 
system will help rectify an increasingly desperate situation.
    Now, sale of these two radar systems cannot be blocked by 
the administration without betraying the legal obligation to 
provide defensive--and I stress the word ``defensive''--weapons 
to Taiwan.
    Now, as some may know from my recent introduction of the 
Taiwan Security Enhancement Act, I believe we need to do more, 
not less, in addressing a growing military imbalance between 
Red China and our key ally and partner Taiwan. And I look 
forward to your response to these concerns that I have stated, 
Secretary Newsom.
    Now, a second issue, ma'am, is the administration's plan to 
build a mixed oxide nuclear fuel plant in Russia. Now, while I 
share the administration's desire to ensure that Russian 
nuclear weapons do not fall into the wrong hands, I am 
convinced that this program will not accomplish the stated 
objective. Rather, by encouraging Russia and others to utilize 
MOX fuel, the administration is virtually guaranteeing that 
weapons grade plutonium is spread around the globe, except that 
this will happen under the guise of ``peaceful nuclear 
cooperation.'' Now, given Russia's nuclear supply relationships 
with countries such as Iran and India, I find this idea to be 
exceedingly unwise, if not ridiculous.
    Moreover, the MOX, as they call it, option will undercut 
the decades-long, bipartisan effort by the United States to 
make clear that plutonium use for commercial power generation 
is a no-no. The administration intends to establish an 
infrastructure here in the United States to burn excess weapons 
plutonium in civilian power plants, and if this is done, our 
decades-old nonproliferation policy will begin to unravel with, 
I imagine, perilous consequences.
    I strongly object to the MOX plan. It would be far more 
prudent to pursue immobilization of Russian weapons material so 
that it cannot ever, ever be retrieved. As for whether the 
United States has excess plutonium to spare, I will reserve 
judgment until the administration proves that it has considered 
the impact this will have on the stockpile stewardship program 
and the nuclear deterrent. I hope, of course, that you will 
respond to my concerns during your comments, Madam Secretary.
    Now then, Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman. I want to 
thank you for having this hearing today and keeping the 
committee as active as you have.
    To state the obvious, we have been a little preoccupied 
with the Balkans and, in particular, Kosovo, Yugoslavia. But 
even now there are actually more important objectives. As 
involved as I have been and you have been in dealing with that 
policy, that may be the most immediate, but there are other 
broader issues that are even more important to our long-term 
security than the fate of Yugoslavia.
    The United States has been working hard to maintain 
strategic stability and stem the flow of materials or 
technology that would contribute to developing weapons of mass 
destruction. When NATO decided to begin its air strikes in 
Kosovo and in Yugoslavia, Prime Minister Primakov turned back 
from a scheduled meeting with Vice President Gore, but Russia's 
Minister of Atomic Energy stayed in Washington to work out 
agreements relating to the disposition of weapons grade 
uranium.
    The reason I bother to point that out is both nations at 
least at the moment seem to understand that, notwithstanding 
their significant disagreement on Yugoslavia, that they are 
keeping contact on those things which most directly impact 
their long-term and vital interests. It seems to me that this 
shows the United States and Russia can still remember and act 
upon shared objectives.
    We too have to act on those objectives and I hope our first 
witnesses will discuss how we can do that.
    Just a word about the witnesses, Mr. Chairman. It is not my 
place, but because I have known Eric for as long as I have, 
Eric is a former Foreign Service officer and served as minority 
staff director on the Intelligence Committee and then as chief 
staffer for the minority on the Foreign Operations Subcommittee 
of the Appropriations Committee. I am pleased to welcome you 
back, Eric.
    I would say Secretary Gottemoeller has also had a 
distinguished career, although I do not think she has ever 
experienced the raw power and exhilaration of being an 
Appropriations Committee staffer.
    That is sheer, undiluted power. And I might add you will 
note, those of you who are observers, on the floor, whenever 
there is an appropriations bill, the only people that Senators 
directly speak to and plead with on the floor, including other 
Senators, are they seek out the appropriations staffers. That 
is absolute power. They wield more power than any Member of the 
Senate at that moment does. So, I doubt, Madam Secretary, you 
have ever experienced that exhilaration.
    But the truth of the matter is that you have taken on an 
incredibly difficult job, nonproliferation programs that deal 
with loose nukes in the former Soviet Union, and also the 
President's expanded threat reduction initiative to extend 
programs so as to reach still more Russian weapons, experts who 
might otherwise decide that there is a place to sell their 
wares and sell their skills.
    In February, Madam Secretary, the General Accounting Office 
issued a report, commissioned by our chairman, that found that 
the Energy Department program Initiatives for Proliferation 
Prevention, or IPP, to be ``in our national interest.'' The GAO 
also found management shortfalls of that program and made some 
important recommendations.
    I think the IPP program is actually a success story, 
considering that in 5 short years, it has reached out and 
assisted thousands of former Soviet scientists who may be 
wandering in other places. But I agree that the time has come 
to tighten management. That is why I have joined the chairman 
in mandating an action plan to implement the GAO's 
recommendations.
    We did that in the authorization bill that this committee 
marked up just last week under the leadership of the chairman, 
and I have every hope that the Energy Department will improve 
the management control and maximize the funds actually reaching 
former Soviet scientists. And if so, I think the IPP program 
will get strong congressional support for the next 5 years.
    Again, Mr. Chairman, there's much to speak about. I have 
only touched on a few issues.
    Let me close by suggesting that there are a lot of things 
that can be said about the chairman, and one is if he is your 
friend, he is your friend. And Taiwan has never had a better 
friend, except maybe as good a friend in Barry Goldwater. I 
want to tell you something. Nothing is going to go very much 
off the mark. There are only a few things I find, Mr. Chairman, 
that get your absolute, undivided, immediate attention and 
focus, and that is one of them. So, when the chairman indicates 
that he hopes that you all will listen, he is a southern, 
courtly gentleman. Translated in an Atlantic Senator's words, I 
would pay a hell of a lot of attention because a lot else is 
hanging in the balance here.
    At any rate, I thank you for being here and look forward to 
your testimony. I have other subjects I would like to raise. I 
am sure my colleagues will as well.
    The Chairman. Thank you, Senator Biden.
    Eric, Joe is exactly right about the reverence with which 
we treat the officials of the Appropriations Committee. It is 
not true, however, that I injured my two knees by kneeling, 
begging.
    But you were always very helpful to me and I shall not 
forget it.
    Senator Biden. Translated another way, Mr. Chairman, Eric, 
you do not have nearly as much power here as you did then.
    The Chairman. Well, in any case, let us practice ladies 
first and invite you to go first, please, ma'am.

STATEMENT OF HON. ROSE E. GOTTEMOELLER, ASSISTANT SECRETARY OF 
 ENERGY FOR NONPROLIFERATION AND NATIONAL SECURITY, DEPARTMENT 
                           OF ENERGY

    Ms. Gottemoeller. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Biden, and other members of the 
committee, I would like to thank you for the opportunity to 
appear before you today and present this statement for the 
record on the work of the Office of Nonproliferation and 
National Security. If I may, Mr. Chairman, I would like to 
summarize my statement and have the rest placed in the record.
    The Chairman. The entire statement will be printed in the 
record.
    Ms. Gottemoeller. Thank you, sir.
    The Chairman. Thank you, ma'am.
    Ms. Gottemoeller. It has been stated many times, but it 
bears repeating: The world we face today is vastly changed from 
the one we lived in during the cold war. The challenges are 
more varied and less predictable. None of these is more serious 
than the proliferation of weapons of mass destruction to rogue 
states and, even more worrisome, to terrorist organizations.
    Within the Department, the Office of Nonproliferation and 
National Security is unique in the range of our contributions 
to national security and nonproliferation policy. The office is 
responsible for national security missions in both domestic and 
international settings. Our programs are part of the broader 
Clinton administration's nonproliferation efforts and have been 
fully coordinated as part of the President's expanded threat 
reduction initiative with the Department of State and the 
Department of Defense.
    In Russia, Department of Energy employees and laboratory 
experts are on the ground and actively working to improve the 
security of hundreds of tons of plutonium and highly enriched 
uranium at dozens of facilities. We are also working with 
thousands of former Soviet Union weapons scientists to provide 
them with non-weapons jobs and prevent them from straying into 
work with countries of proliferation concern.
    Here at home, we are accelerating our efforts to harness 
the skills of the national laboratories to meet the growing 
threats of chemical and biological weapons and the very serious 
risk that such weapons will be used on U.S. territory. In 
addition, my staff is ensuring the protection of U.S. nuclear 
materials and of DOE sites and preparing for emergencies that 
could affect the DOE complex.
    I would like to first turn to the Department of Energy's 
programs to reduce the risk of brain drain in the former Soviet 
Union, and in this regard, I will address some of the issues 
that Senator Biden raised.
    Through our Initiatives for Proliferation Prevention 
program, we have worked with over 170 institutes and sponsored 
collaborative scientific efforts with over 6,100 ex-Soviet 
nuclear, chemical, and biological weapons experts. This work 
has helped keep these experts in Russia and the Newly 
Independent States as opposed to selling their know-how to 
rogue regimes, criminal groups, or terrorist organizations.
    We are embarking on a much more challenging enterprise 
which also seeks to develop alternative, non-weapons jobs for 
weapons scientists, this time as part of our Nuclear Cities 
Initiative. We are pleased that Russia is finally taking steps 
to reassess and restructure their nuclear complex and has 
approached us about helping to develop new jobs for weapons 
scientists who will lose their defense work as weapons 
facilities close.
    The Initiatives for Proliferation Prevention is a classic 
brain drain program, focused on the elite of the Russian 
scientific establishment and working to keep them at work in 
their scientific laboratories. By contrast, the Nuclear Cities 
Initiative is building off a Russian Government decision to 
downsize and restructure its own nuclear weapons complex. It is 
designed for scientists and technicians who are losing their 
jobs in the weapons complex and are at risk of long-term 
unemployment in the crisis-ridden Russian economy.
    The Department of Energy and my office in particular, have 
taken note of the concerns expressed in the General Accounting 
Office's recent report on the IPP program, and we have also 
taken note of the action plan that was put forward by this 
committee. We are working aggressively to implement their 
recommendations and believe that adoption of their comments 
will greatly improve what is already a successful enterprise. 
Mr. Chairman, Senators, I want to underscore that we have 
welcomed these recommendations and we are eager to work 
together with you to ensure that the recommendations are fully 
implemented. These include a strengthened review process to 
ensure that no Initiatives for Proliferation Prevention 
projects have any potential benefits for Russian military 
programs and an increased effort to refocus available funds so 
that more money reaches Russian and NIS scientists, rather than 
staying in DOE labs.
    I will next turn to our Materials Protection, Control, and 
Accounting Program.
    The members of this committee are keenly aware of the 
importance that Russia plays in our overall nonproliferation 
strategy. For several years we have been building up a legacy 
of trust and personal relationships that has allowed us to 
cooperatively pursue security upgrades throughout the Russian 
nuclear weapons complex. The importance of this work, carried 
out under our MPC&A program, cannot be overstated. We have 
completed security upgrades for 30 tons of weapons-usable 
nuclear materials and expect to bring a total of 100 tons under 
complete security systems by the end of the year 2000. We have 
made considerable progress with regard to improving the 
security of nuclear materials in Russia, but we understand that 
there is much still to be done. Particularly, the situation has 
been exacerbated by Russia's economic collapse in Russia, and 
we have seen among our Russian colleagues an increased 
awareness of the insider threat from the Russian nuclear 
complex.
    I would like to say just a word, if I may, about the 
absolutely incredible men and women who have been working on 
this program day and night for the past several years. The 
image of the civil servant and Government bureaucrat is 
sometimes impugned, but I would like to say that members of our 
team are working constantly throughout the nuclear complex of 
the former Soviet Union in some of the most remote and least 
hospitable sites in the world. They spend weeks away from their 
families and make repeated trips to such locations, and they 
are really doing a fantastic job to facilitate and complete 
their assignments in that regard.
    Sir, if I may, Mr. Chairman, I would like to say a few 
words about your comments with regard to MOX and immobilization 
and Pu disposition, plutonium disposition.
    As you are aware, we have been pursuing a very firm policy 
with Russia to get them to the negotiating table on plutonium 
disposition. This is an area where in the past it was rather 
difficult to get them to the negotiating table and get them to 
face up to the many issues that must be addressed with regard 
to disposal of the enormous amount of weapons plutonium that 
they have available in their system. We have found that by 
pursuing a dual-track strategy involving both MOX and 
immobilization and they have, indeed, been willing to work with 
us. It has brought Russia to the table and gained their 
commitment to active disposition of plutonium.
    I would just take note of the fact that in the Department 
of Energy, the lead on this issue is Ms. Laura Holgate in the 
Office of Materials Disposition. Of course, the overall 
negotiations are led by the Department of State by Mr. John 
Holum.
    I think, Mr. Chairman, with that I will close my remarks 
only to say that, indeed, we view nonproliferation challenges 
as addressing an entire spectrum of problems, ones that stem 
from problems in the former Soviet Union in Russia, in the 
nuclear weapons complex. We work there on potential sources of 
the problems, and in the domestic context, we are constantly 
working in the DOE complex, as well as with the overall 
community concerned with the potential chemical and biological, 
as well as weapons of mass destruction terrorism. We will 
continue to do so. We are quite focused on the necessity of 
approaching the nonproliferation problem as a broad spectrum 
problem that requires attack. It requires solutions at many 
levels, and we are fully committed to engaging at many levels.
    Thank you, sir.
    [The prepared statement of Ms. Gottemoeller follows:]

            Prepared Statement of Hon. Rose E. Gottemoeller

                              introduction
    Thank you, Chairman Helms, Senator Biden and other members of this 
Committee, for the opportunity to appear before you today to present 
this statement for the record on the work of the Office of 
Nonproliferation and National Security.
    It has been stated many times, but it bears repeating: the world we 
face today is vastly changed from the one we lived in during the cold 
war. The challenges are more varied and less predictable. None of these 
is more serious than the proliferation of weapons of mass destruction 
to rogue states and, even more worrisome, terrorist organizations. The 
President has declared the threat of weapons of mass destruction 
proliferation to constitute a ``national emergency'' and I am proud of 
the role the Department of Energy, and my Office in particular, is 
playing in responding to that emergency.
    Within the Department, the Office of Nonproliferation and National 
Security is unique in the range of our contributions to national 
security. The Office is responsible for national security missions in 
both domestic and international settings. Our programs are part of the 
broader Clinton Administration's nonproliferation efforts and have been 
fully coordinated as part of the President's Expanded Threat Reduction 
Initiative. Moreover, they have been coordinated and prioritized within 
the inter-agency, including the Departments of State and Defense. In 
Russia, Department of Energy employees and laboratory experts are on 
the ground and actively working to improve the security of hundreds of 
tons of plutonium and highly enriched uranium at dozens of facilities. 
We are also working with thousands of former Soviet Union weapons 
scientists to provide them with nonweapons jobs and prevent them from 
straying into work with countries of proliferation concern. Here at 
home, we are accelerating our efforts to harness the skills of the 
national laboratories to meet the growing threats of chemical and 
biological weapons and the very serious risk that such weapons will be 
used on U.S. territory. In addition, my staff is ensuring the 
protection of U.S. nuclear materials and of DOE sites, and preparing 
for emergencies that could affact the DOE complex.
 initiatives for proliferation prevention and nuclear cities initiative
    Let me first turn to the Department of Energy's programs to reduce 
the risk of ``Brain Drain'' in the former Soviet Union. Our efforts to 
engage and orchestrate alternative employment for underemployed and 
unemployed ex-Soviet weapons scientists is a critical part of the 
Clinton administration's approach to the threat posed by the break up 
of the former Soviet Union's nuclear complex. Through our Initiatives 
for Proliferation Prevention program, we have worked with over 170 
institutes and sponsored collaborative scientific efforts with over 
6,100 ex-Soviet nuclear, chemical and biological weapons experts. This 
work has helped keep these experts in Russia and the Newly Independent 
States, as opposed to selling their know how to rogue regimes, criminal 
groups or terrorist orgarnzations.
    We are embarking on a much more challenging enterprise which also 
seeks to develop alternative, non-weapons jobs for weapons scientists, 
this time as part of our Nuclear Cities Initiative. The ten closed 
nuclear cities in Russia are the jewels in the Russian nuclear crown. 
We are pleased that Russia is finally taking steps to reassess and 
restructure their nuclear complex and has approached us about helping 
to develop new jobs for weapons scientists who will lose their defense 
work as weapons facilities close. We are approaching this endeavor with 
a mixture of commitment and pragmatism, realizing that such efforts 
will take time. But the goals of keeping the Russian weapons scientists 
at home, and helping to reduce the size of the Russian nuclear 
infrastructure, contribute directly to U.S. security.
    The Initiatives for Proliferation Prevention is a classic ``brain 
drain'' program, focused on the elite of the Russian scientific 
establishment and working to keep them at work in their scientific 
laboratories. It is geared toward projects with a high science and 
technology content, increasingly with an emphasis on commercial 
application. By contrast, the Nuclear Cities Initiative is building off 
a Russian government decision to downsize and restructure its own 
nuclear weapons complex. It is designed for scientists and technicians 
who are losing their jobs in the weapons complex and are at risk of 
long-term unemployment in the crisis ridden Russian economy. This 
program is focused on creating new jobs in the Russian nuclear cities, 
whether technology-based or not. Both programs share the goal of 
keeping ex-Soviet weapons know how from aiding the weapons of mass 
destruction acquisition programs in other countries.
    The Department of Energy, and my Office in particular, have taken 
note of the concerns expressed in the General Accounting Office's 
recent report on our Initiatives for Proliferation Prevention program. 
We are working aggressively to implement their recommendations and 
believe that adoption of their comments will greatly improve what is 
already a successful enterprise. These include a strengthened review 
process to further ensure that no Initiative for Proliferation 
Prevention projects have any potential benefits for Russian military 
programs and an increased effort to refocus available funds so that 
more money reaches Russian and Newly Independent State scientists.
    The Department of Energy also contributes to other science-based 
engagement programs in the former Soviet Union. The International 
Science and Technology Centers, which are administered by the 
Department of State and rely on the technical expertise of the 
Department of Energy's national laboratories to review and assess 
proposed projects with ex-Soviet weapons scientists. This interaction 
is a clear example of how the United States Government agencies are 
working together and pooling U.S. assets to achieve the greatest 
possible security benefit for the American people.
              material protection, control and accounting
    Next I will turn to the situation in Russia with regards to the 
protection of nuclear materials. The members of this committee are 
keenly aware of the importance Russia plays in our overall 
nonproliferation strategy. For several years, we have been building up 
a legacy of trust and personal relationships that has allowed us to 
cooperatively pursue security upgrades throughout the Russian nuclear 
complex. The importance of this work, carried out under our Material 
Protection, Control and Accounting program, cannot be overstated. Our 
programs have been key to international efforts to prevent the 
acquisition of nuclear weapons by terrorists or would-be nuclear 
states. We have completed security upgrades for 30 tons of weapons-
usable nuclear materials and expect to bring a total of 100 tons under 
completed security systems by the end of the year 2000. In this goal, 
we have made considerable progress, but we have recognized that the 
task before us is much greater than we understood when this program 
began in 1994. Russia's economic collapse in August has forced us to 
re-evaluate our methods and priorities and brought, from the Russians 
themselves, a renewed sense of urgency to our cooperation. This now 
includes an increased awareness of the ``insider threat'' of nuclear 
materials diversion and an understanding that the size, and geographic 
scope of the nuclear enterprise is larger than had been appreciated in 
1994.
    A word, if I may, about the absolutely incredible men and women who 
have been working on this problem night and day for the past several 
years. The image of the civil servant and government bureaucrat has 
been impugned for years in our society. I know that the members of this 
committee are well aware that the average civil servant is motivated 
and hardworking, but I have been struck since I became director of the 
Nonproliferation and National Security office by the absolute 
dedication of our Material Protection, Control and Accounting task 
force and the almost superhuman level of their efforts. Their work 
sites in the nuclear complex of the former Soviet Union include some of 
the most remote and least hospitable locations in the world. They spend 
weeks away from family and basic comforts and make repeated trips to 
such locations in order to facilitate and complete their assignments. 
The work load for the average Task Force member is extreme, as we had 
sought to limit the task force size to one appropriate for a limited 
duration project. This is an issue that we are examining extremely 
closely at the present time, in the expectation that the team will 
become larger and longer range in its organizational outlook.
    While we still have considerable work ahead of us to upgrade 
security around Russian nuclear materials, we are also striving to 
address other sources of proliferation risk and concern in the former 
Soviet Union. We consider our work at nuclear sites to be the first 
line of defense against the proliferation of nuclear weapons. The 
second line of defense is the internal borders of Russia, and helping 
to ensure that any stolen or misappropriated materials cannot leave the 
country. Our Second Line of Defense program has already installed 
nuclear material detectors at the main international airport in Moscow 
and at the Caspian seaport of Astrakhan. We have identified 22 
additional border crossings that for tactical or strategic reasons 
warrant the installation of similar equipment. This is yet another 
example of how a relatively small investment can help protect ourselves 
and our friends against the greatest of threats.
                 doe's role in the inter-agency process
    The Department of Energy is an active and full participant in the 
U.S. Governmental inter-agency process. Working together with the 
Departments of State, Defense, Commerce, the intelligence community and 
the National Security Council, DOE provides critical technical and 
policy inputs into the development of U.S. arms control, 
nonproliferation and national security policy.
    DOE is able to bring its considerable technical and policy assets 
to bear on acute national security threats in the international arena. 
In the former Soviet Union, the implementation of effective security 
over nuclear materials and our work to support inter-agency efforts to 
end the production of plutonium, construct a storage facility for 
nuclear materials released from weapons, ensure the disposal of 50 
metric tons of weapons-usable plutonium, and pursue new and more 
effective means for reducing the nuclear legacy of the cold war are 
indicators of the integral role DOE plays in the inter-agency process.
    In addition, the Department of Energy works continually with the 
other national security agencies within the government to design, 
evaluate and implement effective policies to control the export of 
materials and technology useful in the acquisition and use of weapons 
of mass destruction. Our role in maintaining the Nuclear Suppliers 
Group, the Zangger Committee, and the Wassenaar Arrangement is a vital 
piece of the inter-agency's role in these effective international 
export control arrangements.
    In the international negotiation and verification of arms control 
agreements, DOE is again a key participant. Our unparalleled 
understanding of nuclear materials and weapons will become increasingly 
important when the United States and Russian negotiate to pursue lower 
levels of deployed nuclear weapons in the strategic arms reduction 
(START) process, and as START begins to consider more challenging areas 
of monitoring, including those related to actual warhead dismantlement. 
Moreover, our contributions in the area of arms control verification, 
including but not limited to our work on the Comprehensive Test Ban 
Treaty and efforts to negotiate a ban on the production of fissile 
materials for nuclear weapons, have been critical additions to the 
negotiation and policy formulation processes.
    I am very proud of the role that DOE plays within the Clinton 
administration's overall nonproliferation and national security 
activities. As the main repository of technical skills and capabilities 
within the government, in many cases DOE is where the rubber meets the 
road. DOE contributes its technical skill in numerous areas, including 
the protection of nuclear materials in Russia, the canning of spent 
fuel in Kazakhstan and North Korea, the transhipment of abandoned 
highly enriched uranium in Georgia or Kazakhstan, development of 
verification tools for the Comprehensive Test Ban Treaty, and detection 
equipment for chemical and biological agents, and assessment of 
proposed export licenses and recommendations for modifying 
international export control lists.
    By providing a technical set of skills to the inter-agency 
discussion of key security issues, the Department helps define what is 
possible and helps expand the envelope of what can be achieved in the 
international field. This is a critical component to defining and 
implementing effective policy decisions. In addition, as an experienced 
party on the ground in many of the countries where the United States is 
working on security and nonproliferation problems, DOE can bring a 
special understanding to inter-agency discussion on international 
policy.
                      national security challenges
    Our work in Russia, as important as it is, must not and does not 
distract our attention from our critical and considerable domestic 
activities. The changed situation abroad is matched by a changing 
picture at home. The President highlighted his concerns about new 
domestic threats in January at a National Academy of Sciences event in 
which he stated that ``The enemies of peace realize they cannot defeat 
us with traditional military means. So they are working on two new 
forms of assault: cyber attacks on our critical computer systems, and 
attacks with weapons of mass destruction--chemical, biological, 
potentially even nuclear weapons. We must be ready--ready if our 
adversaries try to use computers to disable power grids, banking, 
communications and transportation networks, police, fire and health 
services--or military assets.''
    President Clinton, and his entire national security team, are 
increasingly concerned about these threats. We are, at the President's 
direction, making concerted and coordinated efforts to meet these 
growing challenges. Let me explain what DOE and NN are doing in this 
area.
                    chemical and biological threats
    Among the Secretary's top priorities is responding to the growing 
threat of chemical and biological attacks inside the United States. The 
Department of Energy, drawing upon the diverse and extensive expertise 
of the national laboratories, has extraordinary assets in the fields of 
biology and chemistry, pursued for both the pure and applied scientific 
value. With relatively modest sums of money, the Department is seeking 
to leverage these skills and experience to improve our ability to 
detect and identify biological and chemical agents.
    To pursue this work, we are requesting a total of $32 million, 
which is a $13 million or 70 percent increase over our 1999 
appropriations. The focus of these efforts is to better equip first 
responders with the tools to identify and categorize chemical and 
biological agents. The tools we seek to develop must be portable, fast, 
accurate and simple, so that they can be put to immediate use in the 
field, serving to protect the American public from hoaxes or, worse, 
actual attacks.
    Again, Mr. Chairman, defining the challenge is as simple as 
answering it is complex. There is, on average, one anthrax threat in 
the United States every day. In January, the shortcomings of our 
current capabilities were made glaringly clear, when an anthrax threat 
was directed at the 7th floor of the Department of State. While this, 
fortunately, turned out to be a hoax, we need to do better in fielding 
smart systems capable of detecting potential chemical and biological 
agents. Today, there are no simple, portable and reliable detection and 
identification tools for biological agents available to those officials 
who are assigned the role of getting to the scene of a chemical or 
biological attack first. Delays in assessing the credibility and 
severity of specific incidents create confusion, waste resources, and, 
in the event of a real attack, costs lives. In sum, our limited 
abilities in this area actually increase the ``terror'' effect of such 
attacks or hoaxes, thus inviting additional events. The sooner we can 
field the types of portable detection equipment we are working on, the 
sooner we will be able to deter and reduce the number of such attacks.
    There are questions raised from time to time about why involve the 
Department of Energy--whose weapons expertise is focused in the nuclear 
arena. To be direct, the Department of Energy and its laboratories have 
a broad range of ongoing programs in biological and chemical areas 
which provide it with a unique set of skills to apply to this problem. 
Although originally developed in the service of our primary nuclear 
mission, these world-class capabilities can be leveraged for critical 
chemical and biological detection work. Programs such as the human 
genome mapping project or chemical spill remediation efforts are also 
being drawn upon to better protect our citizens against the most 
insidious of attacks.
    The Department recognizes, however, that it does not have 
operational responsibilities for protecting the public from chemical or 
biological attack. As a result, our work is focused on meeting the 
needs of our customers, namely agencies within the government 
responsible for directly responding to such threats. An example of this 
close relationship is the work we are engaged in with the Defense 
Threat Reduction Agency to conduct a joint demonstration of our 
modeling and detection technologies at the upcoming Winter Olympics in 
Salt Lake City.
                        research and development
    The larger part of our research and development program, for which 
we are requesting $221 million in total, is dedicated to other ground 
breaking and vital efforts to improve our national security. Within my 
office, our Research and Development activities are working to ensure 
the early detection of proliferation-related activities and to improve 
our ability to verify existing or planned international treaties. We 
are pursuing a number of important avenues which will help detect, with 
increasing reliability, efforts to produce and refine nuclear 
materials, as well as new and better ways to detect and characterize 
nuclear tests and activities contrary to international norms or U.S. 
security interests.
    In addition to the our efforts on the chemical and biological 
weapons detection systems mentioned above, our program is focused on 
developing and demonstrating: sensor systems for remote detection of 
effluent signatures indicative of proliferation activities using active 
and passive optical techniques; sensor systems for remote detection of 
physical signatures indicative of proliferation activities using radar, 
multispectral, optical, and radio frequency techniques; nuclear 
radiation detection sensor systems to enhance nuclear material 
accountability and control as well as deter nuclear smuggling 
activities; and developing and producing ground and satellite-based 
sensors and systems to enable effective U.S. monitoring of nuclear test 
ban treaties.
    Requirements for the Department of Energy's Nonproliferation 
Research and Development Program are derived from Presidential and 
Congressional direction and from our customers within the interagency 
community. The program is closely coordinated at the working level with 
operational users and other developers, and is reviewed at the more 
senior level by interagency bodies like the Counterproliferation 
Program Review Committee and the Nonproliferation and Arms Control 
Technology Working Group. An example of the close interagency 
cooperation is the program's Multispectral Thermal Imager small-
satellite scheduled for launch in early FY 2000. The demonstration 
satellite developed by the DOE is being launched as part of the Air 
Force Space Test Program, with the Air Force paying for the launch 
costs.
                           domestic security
    Our domestic responsibilities within the DOE complex also play an 
important part in our overall nonproliferation activities. DOE's Office 
of Safeguards and Security sets policy and reviews implementation of 
physical and information security within the Department of Energy. In 
full cooperation with the Department s counter intelligence office and 
the Secretary's initiatives to further improve the security situation 
at the national laboratories, the Department is meeting its 
responsibilities to protect what are among this nations most important 
national security assets.
    Ongoing developments in this field are having a dramatic impact on 
the way we do business at the national laboratories. Secretary 
Richardson and the entire Department of Energy is committed to ensuring 
that we have the best possible security at these critical facilities. 
As the Secretary has stated, however, this facilities cannot operate in 
a vacuum if they are to remain the pre-eminent scientific 
establishments that exist today. With proper precautions, we can and 
will ensure that the laboratories fulfill their many critical national 
security missions.
                           emergency response
    Even as we prepare to address the risk of attack here at home, 
including our CBW detection efforts and our domestic security work, we 
are constantly preparing for how to respond should an emergency 
develop. The Office of Emergency Response is a critical resource for 
the Department and the United States Government as a whole. This 
extensive communications network and dedicated staff are vital assets, 
and enable the Department's leadership to receive and process updates 
and help manage the response to a large variety of contingencies. These 
include enviroumental concerns associated with the management of DOE 
sites, to the more extreme cases of attack or sabotage. As with the 
other offices within my responsibility, I have been extremely impressed 
with the professionalism and dedication of the staff within this 
program office. Their efforts help reduce the likelihood of a crisis 
and enable us to reduce the consequences, should one arise. Their 
efforts are generally underappreciated in the eye of the public, 
largely due to their skill and success in their jobs.
                               conclusion
    I would like to end where I began, and thank the Chairman and the 
entire Committee for their support for the Department and my Office as 
we address the nation's critical national security missions. I look 
forward to our continued work together. Thank you.

    The Chairman. Thank you very much.

STATEMENT OF HON. ERIC D. NEWSOM, ASSISTANT SECRETARY OF STATE 
      FOR POLITICAL-MILITARY AFFAIRS, DEPARTMENT OF STATE

    Mr. Newsom. Thank you, Mr. Chairman, Senator Biden. I 
appreciate those kind words. When people in the State 
Department ask me what it was like to change from working as a 
Senate staffer to coming down there, I say that I was a 
powerful, influential staffer on the Senate Appropriations 
Committee and now I am an Assistant Secretary of State. I have 
to have 20 people sign off on everything that I do. The 
contrast is actually very sharp.
    Mr. Chairman, Senator Biden, members of the committee, I am 
pleased to appear before you today, along with my friend, Rose 
Gottemoeller. I just would deliver a short statement and if I 
could ask that my full statement be inserted in the record.
    The Chairman. Without objection, it certainly will be.
    Mr. Newsom. Sixteen months ago, the Senate confirmed me as 
Assistant Secretary of State for Political-Military Affairs, 
and I would like to express my very strong appreciation to this 
committee for taking the time at the end of what I know was an 
extraordinarily busy session to deal with my confirmation. I 
appreciate the confidence that you expressed in me by that act, 
and I am very grateful to the President and the Secretary of 
State for appointing me to this position.
    One piece of business I left unfinished at that time was my 
appearance before you, and so I look forward today to 
discussing with you the range of issues covered by the 
Political-Military Bureau.
    Of course, a significant event has occurred since my 
confirmation, that is, the merging of the Arms Control and 
Disarmament Agency into the State Department. Before April 1, 
the Political-Military Bureau dealt with a wide range of 
important national security issues. Now, its former arms 
control and nonproliferation responsibilities have been placed 
into new bureaus. In this sense, the reorganization has brought 
the Political-Military Bureau back around full circle, closer 
to its original mission when it was first set up in the early 
1960's.
    The main functions of Political-Military Affairs at that 
time were twofold: to be the Secretary of State's principal 
resource on significant political-military matters and to be 
the Department of State's primary liaison with the Department 
of Defense.
    With the loss of arms control and nonproliferation 
responsibilities in this reorganization, once again the 
Political-Military Bureau's primary focus is on regional 
security policy issues, arms transfer policies, and on 
coordination with the Defense Department on a broad range of 
security matters, including planning for contingencies.
    Despite this now more sharply focused agenda of the 
Political-Military Bureau, its mission remains daunting and we 
must now meet these demands with a much reduced staff. That 
will, of course, require careful setting of our goals, and I 
would like to outline to you what I see as the principal 
priorities of this new Political-Military Bureau.
    First, the arms transfer policy and decisionmaking process. 
Arms transfers are a key tool in protecting U.S. national 
security. Ensuring that our allies and friends have the 
military capabilities to play their part in protecting shared 
values and interests is vital to our own national security and 
to ensuring that we need not do so alone. But as this committee 
knows so well, an effective arms transfer policy has additional 
benefits. Relationships built by supporting our friends and 
allies with appropriate systems for legitimate national defense 
serves our national security interests as well. And there are 
also important economies which accrue to the Department of 
Defense.
    I am firmly committed to continued high quality decisions 
in this area and to improvements in the complex process and to 
close consultations with this committee, which I believe have 
been very constructive.
    Confidence and security building measures. Reducing the 
threat of war and supporting peaceful means for managing and 
resolving conflicts has long been a major American leadership 
characteristic and a contribution to international security. 
Confidence and security building measures, or CSBM's, are an 
important tool for increasing regional security and stability. 
They have a direct impact on everything from threat perception 
to peacekeeping operations to arms transfer decisions. So, I 
intend to pursue conventional arms related CSBM's as a high 
priority for the new Political-Military Bureau.
    Critical infrastructure protection. This is a very new 
field, but one which we believe is becoming incredibly 
important to our national security. We are all aware of the 
advantages that technology has given us, but we are also 
vulnerable in the information age to attacks on our critical 
infrastructure by hostile states, terrorists, or hackers. Under 
the President's directive of last year, PDD-63, the State 
Department is responsible for international outreach on this 
issue. Our goal is to work with other countries to develop 
policies and procedures designed to promote political and 
military and defense cooperation on protection of critical 
infrastructures where we share common dependencies or where 
infrastructure stability is critical to U.S. interests.
    Defense analysis. In this complex and changing global 
environment, it is more important than ever for our foreign 
policy and national security goals to be closely in harmony. I 
am working closely with OSD, the Joint Staff, the regional 
CINC's to try to further this goal through developing 
capabilities in P&M and relationships with senior levels of 
those agencies to look at how Department of Defense plans, 
programs, and activities might be better integrated into our 
overall foreign policy goals. We need to do a better job in 
this area, and I think you will find persons from the Defense 
Department, the uniformed services, and within the State 
Department who will say up front that this is an area which 
needs a great deal of attention.
    Humanitarian demining. Eliminating the scourge of land 
mines from past wars and regional conflicts is of great 
importance to regional security around the world. This program 
has expanded considerably in the past few years and now we are 
supporting programs in 26 mine-afflicted nations and another 4 
or 5 are likely to join the program in the next year. Our 
support, along with that of other donors, is making a 
substantial difference. Land mines are coming out of the 
ground. Casualty rates are going down. Refugees are returning 
to their villages. Roads and highways are being cleared. 
Businesses and industries are restarting. We have enjoyed 
considerable support from Congress and in particular from this 
committee, Mr. Chairman, for which I express our thanks. We 
hope that working together we can continue to make substantial 
additional progress in this area.
    Contingency planning. Secretary Albright has spoken of two 
key policy requirements for peacekeeping and crisis response: 
We must do the right thing, and we must do the thing right. 
Almost 2 years ago, the President mandated the establishment of 
a process for interagency planning for peacekeeping and for 
other complex political-military operations to ensure that we 
do the thing right.
    The Bureau of Political-Military Affairs, charged as the 
leader in the Department of State on this process, works 
closely with the Department of Defense, the NSC staff, and 
others in the interagency community to do political-military 
planning in anticipation of future contingencies so that we do 
not have to decide in the midst of a crisis how to handle 
ourselves, what the relationship between the military and the 
civilians will be in a given situation.
    Regional security. For success in our goals of economic 
prosperity and democratic values, the world must be safe and 
secure. Regional security and stability are key building blocks 
of this aspect of our foreign policy. I chair an interagency 
working group on Persian Gulf security issues and, along with 
my two Deputy Assistant Secretaries, conduct over 20 security 
dialogs each year with countries in every region of the world 
addressing regional security issues. In these dialogs, we take 
a special effort with the emerging democracies of Central 
Europe and the former Soviet Union. In addition to the Gulf, 
regional security in the Aegean, the Caucasus, and East Asia 
remain areas where we continue to focus a large part of our 
efforts.
    In an increasingly austere fiscal environment, maximizing 
the use of our scarce resources is critical. Over time, 
security assistance has become a smaller and smaller tool in 
our foreign policy toolbox. That is why, more than ever, we 
must make sure these funds are applied to our highest 
priorities and used to maximum effect in pursuing those 
priorities. I believe that the International Military Education 
and Training program, or IMET, gives America the biggest bang 
for the security assistance buck. We do not fully appreciate 
how IMET and similar programs impart American values to the 
recipients in foreign militaries both directly and indirectly.
    I am going to curtail the rest of this and just simply 
close by saying, Mr. Chairman, that this reorganization, while 
it did take away a major part of the responsibilities of the 
Political-Military Bureau and shifted them to other places, I 
believe it does give us an opportunity now to focus more on 
very important missions for security policy and the integration 
of security policy with diplomatic policy. Of course, the 
political-military, arms control, and nonproliferation issues 
cannot be totally separated, and all three of these bureaus now 
will continue to work closely together, just as we did when it 
was ACDA and P&M in the past.
    So, I thank you again, Mr. Chairman and members of the 
committee, for the opportunity to appear before you here today, 
and I look forward to your questions.
    [The prepared statement of Mr. Newsom follows:]

               Prepared Statement of Hon. Eric D. Newsom

    Mr. Chairman and Members of the Committee: I am pleased to appear 
today before this Committee, along with DOE Assistant Secretary for 
Non-proliferation and National Security, Rose Gottemoeller.
    It has now been over six months since the Senate confirmed me as 
Assistant Secretary of State for Political Military Affairs. I would 
hike to express my appreciation to you, Mr. Chairman, and the rest of 
the Committee for taking the time at the end of the last Congressional 
session--a period which is always very busy--to address my 
confirmation. I appreciate the confidence you have expressed in me, and 
I appreciate the confidence expressed by the President and the 
Secretary in appointing me to this position.
    One piece of business left unfinished at that time was my 
appearance before you. I look forward today to discussing with you the 
range of issues covered by the Bureau of Political Military Affairs.
    Of course, a significant event has occurred since my confirmation: 
the merging of the Arms Control and Disarmament Agency into the 
Department of State. Planning for the reorganization leading up to 
April 1, and getting the reorganized Bureau of Political-Military 
Affairs running smoothly since then, has taken up much of my time and 
that of my colleagues. The changes have been more than merely shuffling 
personnel and changing the names of offices. It also has resulted in a 
much more sharply focused mission for the Bureau.
    Before April 1 the Bureau of Political-Military Affairs dealt with 
an exceptionally wide range of issues important to our national 
security. Now, however, the arms control and nonproliferation 
portfolios have been placed into new bureaus. In a sense, this 
reorganization has brought the Bureau of Political-Military Affairs 
full circle to its original mission, when the Office of Politico-
Military Affairs first became a bureau in 1969.
    The main functions of that Bureau were two-fold: to be the 
Secretary's principal resource on key political-military matters, and 
to be the Department's primary liaison with the Department of Defense. 
In preparing for this reorganization, I have consulted widely and given 
a great deal of thought to the goals and mission of the new Bureau of 
Political Military Affairs.
    I believe this Committee and the Bureau of Political Military 
Affairs have together resolved some very difficult and serious issues 
concerning the foreign policy and national security of the United 
States. Mr. Chairman, I look forward to continuing to work closely and 
collaboratively with you and the other Members of the Committee.
         priorities of the bureau of political military affairs
    Despite the more sharply focused responsibilities of the new 
Bureau, its mission remains daunting. In addition to a broad range of 
political-military issues, we face a number of conflicts around the 
world. And we must meet these demands with a much-reduced staff. This 
problem will, of course, require a careful setting of our goals. The 
following is what I see as our key priorities.
Arms Transfer Policy/Process
    Arms transfers are a key tool in protecting U.S. national security. 
Ensuring that our allies and friends have the military capabilities to 
play their part in protecting shared values and interests is vital to 
our own national security, and to ensuring that we need not do so 
alone. But as you know well, Mr. Chairman, an effective arms transfer 
policy has additional benefits. For a number of reasons beyond our 
control, the United States today may not have the same ability to 
influence countries around the world that we have enjoyed in the past. 
The relationships that result from supporting our friends and allies 
with appropriate systems for legitimate national defense, are 
significant. So are the economies accrued to the Department of Defense. 
However, no other Committee in Congress knows better than this one the 
efforts my Bureau goes to make the very best transfer decisions, often 
under difficult circumstances. I am firmly committed to continued high 
quality decisions and improvement in process in consultation with this 
committee.
Confidence and Security Building Measures
    Reducing the threat of war and supporting peaceful means for 
managing and resolving conflict has long been an American contribution 
to international security. Confidence and security building measures 
(CSBMs) are an important tool for increasing regional security and 
stability. CSBMs have a direct impact on everything from threat 
perceptions to peacekeeping operations to arms transfer decisions. 
Traditional, conventional arms-related CSBMs are a high priority for 
the new Bureau of Political-Military Affairs. Together with other 
bureaus in the Department, we will share our expertise and experiences 
with other countries in the areas of conventional weapons 
nonproliferation, arms reduction, military transparency, and confidence 
and security building measures. We will design specific security 
solutions for regional problems when requested by affected states, and 
build constituencies for regional arms control and support for 
negotiated security agreements. While we have routinely discussed CSBM 
issues in our security dialogues and in making arms transfer decisions, 
I am directing additional resources into these efforts. The Bureau of 
Political Military Affairs is an active participant on CSBM issues on a 
global basis, particularly contributing to CSBM work through the 
Organization of American States and the Organization of African Unity.
Critical Infrastructure Protection
    The relentless development of more sophisticated information 
technologies, as well as the increasing dependence of the U.S., with 
other countries on these technologies, have been a blessing and a 
curse. We are all aware of the advantages of technology. We are also 
all vulnerable in the information age to attacks on our critical 
infrastructures by hostile states, terrorists, or hackers. Under the 
President's directive, known as PDD-63, the State Department is 
responsible for international outreach on the issue. As part of this 
effort, I chair an interagency group focusing on the political-military 
and defense aspects. Our goal is to develop policies and procedures 
designed to promote political-military and defense cooperation on CIP 
issues in countries with which we share critical dependencies or whose 
infrastructure stability is critical to U.S. interests.
Defense Analysis
    In this complex and changing global environment, it is more 
important than ever for our foreign policy and national defense goals 
to be in harmony. I am working closely with OSD, the Joint Staff, and 
the CINCs to further this goal through a serious analysis of how we are 
preparing to use the Department of Defense to advance our foreign 
policy goals. Not only does my staff engage their Defense counterparts 
on a daily basis, but I meet regularly with the senior leadership in 
OSD and the Joint Staff, as well as directly with the CINCs. We need to 
do a better job in this area.
Humanitarian Demining
    Eliminating the scourge of landmines from past wars and regional 
conflicts--returning land to productive use and people to peaceful and 
productive lives--is of great importance to countries around the world. 
The Secretary has personally embraced this goal. Responsibility for 
managing the U.S. Humanitarian Demining Program has been placed in the 
Bureau of Political-Military Affairs. This program has 
expandedconsiderably in the past few years, and we are now fully 
engaged in supporting 26 mine afflicted nations, with another four or 
five likely to join the U.S. program in the next year. The objectives 
of the program are to reduce the number of civilian landmine 
casualties; to return to their homes refugees and internally displaced 
persons who have been denied access to them by landmines; and to 
enhance the political and economic stability of nations affected by 
landmines. Our support, along with that of other international donors, 
is making a difference. We are making progress; landmines are coming 
out of the ground; casualty rates are going down; refugees are 
returning to their villages; roads and highways are being cleared; and 
businesses and industry are restarting. We have enjoyed considerable 
support from the Congress, and particularly this committee, Mr. 
Chairman, and we thank you for that support. We hope that, together, we 
can continue to make progress.
Contingency Planning
    The Secretary has spoken of two key policy requirements for 
peacekeeping and crisis response: we must ``do the right thing,'' and 
``do the thing right.'' Almost two years ago the President mandated a 
process for interagency planning for peacekeeping and other complex 
political-military operations. His Directive (PDD-56) aims to ensure 
that when the United States is the lead or a key actor in such 
operations we ``do the thing right.'' The Bureau of Political Military 
Affairs works with the Defense Department, NSC staff, and others in the 
interagency community on political-military planning for complex 
contingencies. Sometimes we lead the process. At other times, we draft 
a section of the plan or work in tandem with the Joint Staff on the 
military aspects. In every case, a core mission of this Bureau is to 
contribute to the ``unity of effort'' necessary for effective U.S. 
leadership and participation in complex operations--to do the thing 
right.
Regional Security
    For the United States to successfully pursue its goals of economic 
prosperity and democratic values, the world must be a safe and secure 
place. Regional security and stability are key building blocks of this 
aspect of our foreign policy. We conduct nearly thirty security 
dialogues each year with countries in every region, of the world. These 
dialogues include special efforts with the emerging democracies of 
Central Europe and the Former Soviet Union. Most recently, we have 
focused priority attention on Persian Gulf security issues. Regional 
security in the Aegean, the Middle East, the Caucasus, and East Asia 
remain areas where we continue to direct a major part of our efforts.
Security Assistance
    In an increasingly austere fiscal environment, maximizing the use 
of our scarce resources is critical to advancing our political-military 
goals. Over time, security assistance has become a smaller and smaller 
tool in our foreign policy toolbox. That is why, now more than ever, we 
must make sure that these funds are applied to our highest priorities, 
and used to maximum effect in pursuing those priorities. I continue to 
see International Military Education and Training (IMET) as the 
security assistance that gives America the biggest bang for the buck. I 
believe, for the most part, we do not fully appreciate how IMET and 
similar programs impart American values to the recipients in foreign 
militaries, both directly and indirectly. The stability we saw in 
military forces around the world during recent radical decrease in 
defense budgets in previous years would have resulted in coups which 
today never materialized, in part because of the learned respect for 
civilian control of the military.
Small Arms
    Earlier I addressed the need for regional stability. While most 
arms control efforts are focused on Weapons of Mass Destruction and 
heavy conventional weapons, small arms and light weapons designed for 
military use have done most of the killing in the post-Cold War era. 
This is especially so for civilians, and particularly in Africa, where 
Kalashnikov rifles are considered weapons of mass destruction. The 
uncontrolled proliferation of these weapons exacerbates conflict, 
contributes to regional instability, facilitates crime, and hinders 
economic development. In many countries, non-secure stocks are often 
stolen for use by indigenous criminal gangs, paramilitaries, or 
insurgents, or sold for use in zones of conflict. I am making stockpile 
security and destruction a focus of our international small arms 
policy. Securing active stocks and destroying excess weapons is cheap, 
often costing pennies a weapon for large stocks, and would pay great 
dividends by decreasing crime, encouraging development, and permitting 
reconstruction of societies attempting to recover from civil war and 
ethnic conflict.
Theater Missile Defense
    Theater missile defense supports, and presents significant 
implications for, our regional security objectives. As I know you are 
aware, Mr. Chairman, U.S. forces abroad, as well as our allies, face an 
increasing threat from offensive missile proliferation. For this reason 
many states have a growing interest in acquiring protection against 
theater ballistic missiles. Working closely with DOD, the Bureau of 
Political-Military Affairs must determine which regions and allies are 
most vulnerable to this threat, and how best to assist in providing the 
protection necessary for our shared security objectives. As you can 
imagine, not all states will share our judgments. Thus, the Bureau of 
Political-Military Affairs must assess and respond to the new 
diplomatic requirements and opportunities created by the introduction 
of TMD into already complicated regional security architectures.
    In closing, State's recent reorganization gives the Bureau of 
Political-Military Affairs the opportunity to focus more clearly on 
what I see as our primary and original mission. Of course, political-
military, arms control, and nonproliferation issues cannot be totally 
separated, and my bureau will continue to work closely with our 
colleagues in the new Arms Control and Nonproliferation bureaus, just 
as the Bureau of Political-Military Affairs and ACDA did before the 
reorganization.
    Mr. Chairman, I would like to reiterate my appreciation for the 
time and effort taken last year by you and the other Members of the 
Committee to approve my nomination. I also wish to thank you for the 
opportunity to address the Committee today and look forward to 
continuing to work closely with you. I would be pleased now to address 
any questions you may have.

    The Chairman. Mr. Secretary, the main reason I was a bit 
late today is because of the surprising interest in these two 
nominations by other chairmen, other Senators, who were present 
at our weekly policy luncheon, and part of my questioning may 
reflect some of the bewilderment of the others. But in any 
case, I know you both will respond fully and without 
hesitation.
    The first thing I want to ask you, what is--we are going to 
have 7 minutes per Senator.
    I want you to describe for me the State Department's policy 
on direct contact with officials of pariah states. Can you do 
that?
    Mr. Newsom. I will give you my best understanding. This is 
not an area of my specific responsibility and I would like to 
supplement, Mr. Chairman, with a written answer.
    Essentially we do not maintain direct contacts with 
officials of the pariah states. I understand that there may be 
certain unavoidable situations such as a U.N. meeting where 
they will be present, but it is at least my understanding that 
our general policy is that we do not engage in direct contacts 
with their officials. But I would like to supplement that, if I 
may, with a written response.
    The Chairman. All right. Include in that statement, if you 
do not already know it, when was this policy established, by 
whom, and under what authority. Do you know the answer to that?
    Mr. Newsom. I do not, Mr. Chairman.
    The Chairman. Be sure you include that in your response.
    Mr. Newsom. I will.
    The Chairman. And I suppose your response will be the same 
to my next question. How was the policy presented and 
promulgated?
    Mr. Newsom. I will have to provide that to you too, sir.
    The Chairman. All right. Maybe you can help now from your 
own memory. Which states are considered for the purpose of this 
policy to be pariah states?
    Mr. Newsom. Well, certainly Iran, Iraq, North Korea, Libya. 
I believe those would be considered the pariah states.
    The Chairman. Well, the thing that created a problem in my 
mind when I was discussing it earlier was that the Foreign 
Relations Committee, now just inquiring about this, has not 
been informed of this policy, and I wonder why we were not. If 
you do not know the answer to that, I will invite you to put 
that in the written response.
    Mr. Newsom. Yes. I think it is safest to be clear that this 
is not an aspect of our policy that I am personally engaged in, 
and anything that I say would be likely to be wrong and get me 
in hot water. I would like to provide it all in writing for 
you, sir.
    The Chairman. Could you do that fairly rapidly?
    Mr. Newsom. I will endeavor to respond promptly.
    [The information requested follows:]
    topic: state department policy on contact with ``pariah states''
    There is no definition in law or regulation for the term ``pariah 
state'' and the Department does not designate any state as a pariah 
country.
    There are states with which the United States does not maintain 
diplomatic or consular relations. As of today, these include: Cuba, 
Iran, Iraq, North Korea, and FRY (Serbia and Montenegro). Guidance on 
contacts with officials of these states is provided as needed by the 
appropriate regional bureau in the Department.

    The Chairman. Now, do you believe that sections 3(a) and 
3(b) of the Taiwan Relations Act take precedence over the arms 
sale clauses of the August 1982 communique signed with 
Communist China?
    Mr. Newsom. Senator, I believe that United States law takes 
precedence over other non-legally binding instruments, and so I 
have to take the position that duly enacted laws of the United 
States would supersede another instrument that did not have the 
effect of law.
    The Chairman. But the Taiwan Relations Act has the effect 
of law. So, you are saying in response to my question that it 
has precedence.
    Mr. Newsom. Yes. I am acknowledging that as the law of the 
United States, that it is legally binding.
    The Chairman. Well, what weapons systems are we prepared to 
provide Taiwan?
    Mr. Newsom. Well, sir, consistent with the Taiwan Relations 
Act and policies of this and previous administrations, we are 
prepared to provide Taiwan with weapons to meet its legitimate 
defense requirements.
    The Chairman. Does that include an early warning system?
    Mr. Newsom. Mr. Chairman, that is a topic which has been 
under active consideration in connection with the current round 
of discussions with Taiwan on their arms sales requests. With 
all possible respect, Mr. Chairman, I have to state that by 
agreement with Taiwan, those exchanges are confidential and I 
am not able to go into them in the open session, although I 
will be happy to do so in a closed session.
    The Chairman. I will think about recessing this session and 
getting an answer to my question because I want it. Or would 
you prefer that we go ahead with the meeting and then 
afterwards both sides meet with you privately?
    Mr. Newsom. Mr. Chairman, I am at your disposal.
    The Chairman. Or would you prefer to go back and check with 
your folks and put it all in writing?
    Mr. Newsom. Mr. Chairman, I am prepared to do as you 
require, if you wish to go into executive session or if you 
wish me to remain behind. I am simply not able to do it in a 
public setting.
    The Chairman. Well, will you be able to do it in writing 
within 24 hours and have it delivered to me?
    Mr. Newsom. I believe I could do that, yes.
    The Chairman. All right. Maybe we could stay after this 
meeting is over for a few minutes to discuss it.
    My time is just about up, so I am not going to start a 
question. Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Madam Secretary, you indicated the Russians approached you 
or your agency regarding civilian employment for Soviet 
scientists. It may be useful in non-Washington speak--not that 
you have done that, but literally how did that happen? Who 
approached whom? How do you get to the point where we are 
working closely enough with the Russians that you actually get 
approached with an idea from Russia saying, hey, look, help us 
employ our scientists? How did that happen? And if you can make 
it brief in light of my time, I would appreciate it.
    Ms. Gottemoeller. Certainly, sir. Perhaps I'll just review 
for the committee the inception of the Nuclear Cities 
initiative.
    Senator Biden. No, no. Don't review it because I understand 
the conception. Tell me, how did it happen? Was somebody at a 
meeting? Did they walk up to you? Was it an official 
communique? Did Gore get a letter from Primakov or 
Chernomyrdin? I mean, how did it happen? I am an eighth grade 
student. You are trying to explain to me how Russians and 
Americans work together in this, how did we get contacted.
    Ms. Gottemoeller. Summer before last, we received our 
initial inklings that the Russians were beginning to decide to 
downsize their nuclear complex. We heard from the NGO community 
specifically that the Russian Government was beginning to talk 
seriously about this. They had never done so in the past.
    When I visited Moscow soon after arriving at the Department 
of Energy in February 1998, I was approached--well, it was 
actually my scheduled meeting with the then Minister of Atomic 
Energy, Mr. Mikhailov, and he said that in fact the Russian 
Government had begun to look at downsizing the nuclear complex 
and that they were interested in learning from the experience 
that the United States had had over the previous 3 decades and 
would we be willing to work with them on an initiative with 
regard to their 10 nuclear cities.
    So, that is really the beginning of the Nuclear Cities 
initiative, and I would like to underscore, sir, the link 
between the kind of information and cooperation we have with 
the non-governmental community and our very close cooperative 
relationship, of course, with the Russian Government on such 
projects.
    Senator Biden. Well, I think it is important sometimes to 
explain to the American people exactly how this works in 
everyday life, that there is this notion that there is some 
kind of a divine intervention that occurs and all these big 
programs that we talk about, acronyms we use that nobody but 
those of us in this room understand. So, the point is that they 
had a problem and someone said, hey, look, to you. Your 
counterpart said, you have been through this. You have 
downsized your defense establishment. How do you do it? Can you 
help? Is that----
    Ms. Gottemoeller. Precisely, Senator. That is exactly what 
happened.
    Senator Biden. The second question is that the plutonium 
disposition, a fancy word for saying get rid of the plutonium. 
Now, this program that the chairman is critical of--in plain 
English that average Americans can understand, what is the deal 
here? They have got a lot of plutonium because they have broken 
down all of these weapon systems they have agreed to break 
down, and you have got weapons grade stuff sitting out there. 
Right? That they own, right?
    Ms. Gottemoeller. Yes, sir, that is exactly right.
    Senator Biden. It is theirs. It was sitting on top of 
missiles, on warheads that were aimed at us to blow us and 
other people up. Right?
    Ms. Gottemoeller. Yes, that is exactly right, sir.
    Senator Biden. And so, with Nunn-Lugar, we went in there 
and we just started chopping up these missiles, but you have 
taken out the yolk of the egg here. You are taking out the 
heart. The stuff that is left over--after you breakup all the 
metal and the steel and the titanium, is you have this stuff 
that is weapons grade material. Right?
    Ms. Gottemoeller. Yes, sir, that is correct.
    Senator Biden. Now, the Russians own that. Right? Or do we 
own it?
    Ms. Gottemoeller. No. The Russians.
    Senator Biden. The Russians because it was theirs. It was 
in their missiles. Right?
    Ms. Gottemoeller. That is correct.
    Senator Biden. It is not anything we sold them. Right?
    Ms. Gottemoeller. Correct.
    Senator Biden. Now, the issue is what are they going to do 
with that. Right?
    Ms. Gottemoeller. That is right, sir.
    Senator Biden. Are they going to go out and sell it to 
somebody else? Are they going to sell it to the Iranians? Are 
they going to sell it to the Iraqis? Are they going to sell it 
to the North Koreans? Are they going to give it to their 
friends? Or are they going to use it to build more missiles? 
Right?
    Ms. Gottemoeller. Sir, I think basically the concern is 
very long-term storage by the Russian Government that could 
result in, at some point, theft or diversion and it could end 
up in the wrong hands.
    Senator Biden. In other words, they are going to put it 
away somewhere. They have got to literally stockpile it. It is 
in a pile somewhere, not literally a pile, but it is stockpiled 
somewhere. And we are worried that it is either not going to be 
adequately controlled because they are not as management 
oriented as maybe we are or we are worried that it is going to 
get in the wrong people's hands. Right?
    Ms. Gottemoeller. Yes, sir.
    Senator Biden. So, what did you decide to do about it? What 
is the negotiation you are talking about?
    Ms. Gottemoeller. Again, we worked with the Russians, 
beginning back in the mid-1990's, and at the April 1996 Moscow 
summit, we agreed with them on an approach that would involve 
both immobilization, that is, putting the plutonium in mixture 
with glass or some other material and storing it so it could 
not be used, it could not in any way be easily taken out and 
turned into weapons, and also fabricating plutonium into mixed 
oxide fuel, so-called MOX fuel, which would then be burned up 
in nuclear power plants. So, two different approaches to 
disposing, to getting rid of the plutonium agreed between the 
two sides to be effective in this regard.
    Senator Biden. But the idea was to get rid of the 
plutonium.
    Ms. Gottemoeller. Absolutely, sir.
    Senator Biden. You ought to just say that because the way 
it sounds, understandably to people, when you hear of this 
program, it sounds like we are somehow giving them plutonium in 
order to be able to burn in their nuclear reactors for civilian 
purposes that they can divert to military use, when in fact it 
is military use plutonium, military ready plutonium that they 
own that we are worried they are not going to control. And just 
like with the scientists, we are trying to figure out how to 
actively get it used in a way that is not a danger to us. 
Right?
    Ms. Gottemoeller. Yes, sir.
    Senator Biden. Or the least danger.
    Ms. Gottemoeller. And that will get rid of it forever.
    Senator Biden. All right. And because to burn it up, it is 
gone, and they have gotten some benefit from it and we have 
gotten some benefit from it.
    Ms. Gottemoeller. Yes, sir.
    Senator Biden. If it were a perfect world and they had no 
plutonium, we would not be sending them any to burn in their 
nuclear reactors, would we?
    Ms. Gottemoeller. No, sir.
    Senator Biden. Well, I am not being facetious because most 
people--you all do this so much, you forget that average people 
are pretty damned smart, but they do not understand all the 
acronyms. And what they think is, what most people think--and 
maybe even some of my colleagues think--somehow this is our 
plutonium, we are giving it to them to help them with their 
energy needs. It is their plutonium that they can control. We 
are worried they are not going to control it, so we are going 
to help them burn it rather than keep it stored. Right?
    Ms. Gottemoeller. Yes, sir.
    Senator Biden. Is that a fair statement?
    Ms. Gottemoeller. To get rid of it forever.
    Senator Biden. I am available as your press person.
    Ms. Gottemoeller. Thank you.
    Senator Biden. I am available to make your case for you 
because you all ain't making it very well, quite bluntly. It is 
not being made well because that is what it is.
    Now, it may be a bad idea at that, but that is what it is. 
It may not be the best way to do it, but that is what it is. It 
is not what a lot of people think it is.
    My time is up and I will come back in a second round, if 
the chairman permits, to ask a few more questions. Thank you, 
Mr. Chairman.
    The Chairman. You are welcome.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding this 
hearing. The issues of nonproliferation and arms control are 
among the most important issues that face this committee and, 
indeed, the full Senate.
    I just want to use a couple minutes of my time to say again 
that I have been a strong supporter of prompt Senate action on 
the Comprehensive Nuclear Test Ban Treaty ever since President 
Clinton submitted the treaty to the Senate for its advice and 
consent on September 22, 1997. It has been signed by more than 
150 nations and prohibits the explosion of any type of nuclear 
device, no matter the intended purpose.
    India's and Pakistan's recent nuclear tests only underscore 
the importance of the CTBT and serve as a reminder that we 
should redouble our efforts to bring the entire community of 
nations into this treaty. While I am pleased that both of those 
countries have agreed to sign the treaty, they have done so 
only after intense international pressure and only after they 
conducted the tests they needed to become declared nuclear 
states.
    We have to do more to ensure that no further nuclear tests 
take place. And, Mr. Chairman, I know you and I respectfully 
disagree about this treaty, but I urge you to begin its 
consideration in earnest at the earliest possible date. The 
United States has to lead the world in reducing the nuclear 
threat, and to do that, we have to become a full participant in 
a treaty of this kind that we help craft.
    Mr. Chairman, now I would like to turn to Mr. Newsom and 
just ask a couple of questions about the treaty.
    Many observers believe that the administration does not 
have a strategy for promoting the Senate ratification of the 
CTBT. How would you respond to that criticism?
    Mr. Newsom. Senator, I think the President and the 
Secretary have made clear that getting the CTB ratified in this 
session is one of the top priorities. I believe that they seek 
every opportunity that they can to press that point on the 
Members of the Senate, pointing out that ratification of the 
treaty, and especially ratification of the treaty this year, is 
increasingly urgent for the United States.
    On the one hand, there is the dialog that we have been 
engaged in with India and Pakistan that you mentioned, and one 
of the things that we have been pressing them very hard to do 
in complying with the benchmarks that were laid down by the 
U.N. Security Council is to commit to sign the CTB by 
September. And we have secured that commitment from those two 
countries.
    As we approach the fall, there is going to be a conference 
pursuant to article 14 of the treaty which will examine 
measures and actions to help bring the treaty into force. The 
United States really should be a full state party by the time 
of that conference because we need to be there as a leader. If 
we have not ratified by then, we will be permitted to be 
present as an observer, but it will not be in the same role 
that we would have, had we ratified the treaty.
    I think another point that we really have to bear very much 
in our minds is that the next NPT review conference is coming 
up in the year 2000. Getting a CTB done was one of the major 
agenda items of the first review conference. It is seen as part 
of the nuclear powers obligation under article 6 of the NPT to 
take reciprocal actions for disarmament. I think it is so 
fundamentally, so profoundly in our interests to maintain the 
NPT regime, strong and stable and permit no challenges to it, 
that our having ratified the CTB will, I believe, be a very 
important demonstration to these other countries that the 
United States and other nuclear powers are moving ahead with 
the agreed agenda in responding to their willingness under the 
NPT to give up the right to have nuclear weapons, that we are 
going ahead and doing the things that we are required to do, 
that is, a CTB, hopefully get the START II treaty ratified, 
well into START III negotiations. All of these things are going 
to be very important to us in managing what could be quite a 
difficult review conference for the NPT.
    So, I echo your words and I think that the administration 
is fully committed to making every reasonable effort it can to 
get the treaty through this year.
    Senator Feingold. I appreciate the answer and the renewed 
commitment.
    I would like to ask Secretary Gottemoeller a different kind 
of question. A number of my constituents have contacted me 
about and are very active in the sister city relationship 
between the Fox Valley region of Wisconsin and the city of 
Kurgan, Russia. Through this relationship, they are working to 
help the people of that region adjust to the construction of a 
chemical weapons disposal facility in their area. Participants 
in this program have made several trips to Russia and a number 
of the folks from Kurgan have also visited Wisconsin. My 
constituents hope that their efforts to foster community 
development in Kurgan in such areas as health care, women's 
leadership training, democracy and civil society programs, and 
infrastructure initiatives can be replicated in the other 
nuclear cities that you mentioned throughout the former Soviet 
Union.
    Just say a bit about the relationship between weapons 
destruction and disposal and community development and whether 
you can really have one without the other.
    Ms. Gottemoeller. Yes, sir. In fact, I am well aware of the 
activities of your constituents. They have played a very 
important role, particularly in looking at the overall health 
situation in Kurgan and working with local hospitals in the 
area and medical doctors and so forth. So, they have made a 
very important contribution overall.
    I would like to say that I consider their activities 
actually as a kind of model for the kind of partnership that we 
would like to develop between the government and organizations, 
regional and state organizations, in building up relationships 
that will enable the downsizing and restructuring of the 
complex to occur as the Russian Government has hoped because, 
as we are well aware in the DOE complex, having accomplished a 
downsizing over the past 30 years, it is necessary to pay 
attention to a wide range of factors, including the health of 
the population and including the overall social situation in 
the area.
    And these are areas that, in fact, organizations in the 
private sector and at the State and local level can make a 
great contribution to. We have already developed a very good 
relationship, for example, with the AID-sponsored sister cities 
program which draws in sister cities from around the country to 
work in the nuclear cities of Russia. There are many things 
that the Government cannot and should not do. I believe that 
areas such as those your constituents have been involved in in 
working particularly the health problems are very valuable and 
will help us essentially to take care of the whole spectrum of 
problems as we are working in the downsizing of these nuclear 
facilities.
    Senator Feingold. I thank you for that answer. Both of my 
questions, I want you to know, come really from a strong 
interest on the part of my constituents in these matters. It is 
not a Washington issue. People are very worried about these 
matters in Wisconsin, and I thank you both for your work in 
this area.
    Thank you, Mr. Chairman.
    The Chairman. Madam Secretary, a year ago this past 
January, somewhere along the 15th or 12th or something, the 
President certified to Congress that China had provided the 
United States with ``clear and unequivocal assurances'' that 
China will not assist any non-nuclear weapons state either 
directly or indirectly in acquiring nuclear explosive devices. 
Are you aware of any information suggesting that China, in 
fact, has subsequent to that provision of the aforementioned 
assurances, assisted such a country either directly or 
indirectly, in acquiring a nuclear explosive device?
    Ms. Gottemoeller. I am not aware, Mr. Chairman, of any such 
actions.
    The Chairman. Do you think if it happened, you would be 
aware? Are you saying that it did not happen?
    Ms. Gottemoeller. I am saying, sir, that in fact we have a 
very great interest as a Government and as an administration in 
this issue overall and that we are very attentive to such 
issues. So, yes----
    The Chairman. I do not want to be rude, and I am not trying 
to lead you into a trap. But less than a month after President 
Clinton certified China for nuclear cooperation with the United 
States, the Pakistan press announced that the military 
plutonium production reactor at a place called K-u-s-h-a-b, 
Kushab, had been brought on line. Now, where do you think 
Pakistan got the heavy water needed for this operation? Do you 
have any interest in that?
    Ms. Gottemoeller. Well certainly, sir, we have a continuing 
interest in proliferation issues of that kind and we do pay----
    The Chairman. But you do not know anything about it.
    Ms. Gottemoeller. Sir, I do not have at my fingertips a 
great wealth of information on that particular issue.
    The Chairman. What does that mean? Would you like to go out 
and telephone and see if somebody will give you an answer to 
that question? Because I think in your position you ought to 
have it if it happened, and I think it happened.
    Ms. Gottemoeller. Well, I would certainly be prepared to 
provide you with full information because, sir, I think 
probably the information resides in the classified realm, and 
so it would be difficult for me to speak about it in this 
setting.
    The Chairman. Well, let me tell you this. This 
classification thing in Washington, DC has become a dodge. Pat 
Moynihan and I had a field day for about a year exposing the 
fraud that classifying this and classifying that is just a way 
to get around taking a position on it or taking any 
responsibility for it.
    Now, I am not saying that that is what you are doing. But I 
want you to find out the answer to that question.
    Ms. Gottemoeller. Certainly, sir. I would be happy to.
    The Chairman. And I want you to find out if it came from 
China, if so, when it came from China, and when was the 
executive branch aware of this matter.
    I am going to ask you to do exactly what I did to Mr. 
Newsom, that is, to get that up in writing and get it to me 
tomorrow because I tell you, I am not going to let this 
committee act on nominations until I get all the information 
that I need and want regarding this sort of thing. So, will you 
get that to me tomorrow?
    Ms. Gottemoeller. Yes, sir, certainly.
    [The information requested follows:]

    Question. What was the extent of Chinese assistance to Pakistan's 
unsafeguarded Kushab reactor? Who supplied the heavy water for Kushab? 
When did the Executive Branch become aware of it? Why did the 
Administration not notify Congress?

    Answer. By mid-1994, the Intelligence Community had sufficient 
evidence to evaluate Chinese assistance to Pakistan, which became a 
factor in U.S.-Chinese negotiations. The most prominent case involved 
the transfer of ring magnets for use in Pakistan's uranium enrichment 
program. During the two years of discussions between the U.S. and China 
with respect to implementation of the 1985 Agreement Nuclear for 
Cooperation, the issue of Chinese assistance to Kushab also figured 
prominently. At that time, U.S. policy officials made it clear to the 
Government of China that, among other things, a ``no assistance'' 
condition regarding any unsafeguarded nuclear activity was absolutely 
essential in order for the President to make the certifications to 
implement the Agreement. The U.S. sought the following assurances from 
China that it:

  <bullet> Would not assist unsafeguarded nuclear activities
  <bullet> Would cease all assistance to Iran's nuclear program once 
        two minor projects, then underway, were completed
  <bullet> Would promulgate/implement national nuclear export control 
        legislation/regulations, including ``catch all'' provisions
  <bullet> Would join the NPT Exporters Committee (Zangger Committee)

    On May 11, 1996, China publicly assured the U.S. that it would not 
provide assistance to any unsafeguarded nuclear facility.
    Ultimately, in return for the May 11 assurance, as well as 
assurances on the other conditions noted above, the President was able 
to provide certification to Congress that China was not assisting third 
countries to develop nuclear explosives. At that time, the President 
also forwarded to Congress both classified and unclassified reports 
detailing Chinese foreign nuclear activities. The Agreement was 
implemented March 18, 1998. The Congress was regularly briefed on all 
relevant issues throughout the U.S.-China negotiations that led to 
Presidential certification.
    Additional details regarding past contacts between Chinese entities 
and Pakistan's unsafeguarded nuclear program can be made available on a 
classified basis. Details related to the heavy water supply to Kushab 
will be made available through classified channels as well.

    [Note: Additional information regarding this question was received 
in classified form.]

    Question. Will you keep the Chairman and Ranking Minority Member 
informed of all activities associated with the proliferation of nuclear 
technology as required by Section 602 of the Nuclear Nonproliferation 
Act?

    Answer. Yes. As you know the Department of Energy, as well as the 
other agencies of the Executive Branch have various reporting 
requirements to Congress on activities associated with the prevention 
of nuclear proliferation, through Section 602 of the Nuclear 
Nonproliferation Act. Specifically, the Department of Energy is 
required to provide a detailed analysis of the proliferation 
implications of advanced enrichment and reprocessing techniques, 
advanced reactors, and alternative nuclear fuel cycles.
    When reliable information associated with the supply of material, 
equipment, or technology to any nuclear activity of concern (nuclear 
explosive or unsafeguarded fuel-cycle) is brought to our attention, the 
Department of Energy, in conjunction with the national laboratories, 
will analyze the information and provide detailed input into the 
Executive Branch's various reporting requirements to Congress, 
including the Section 602 report.

    The Chairman. All right.
    Mr. Newsom, I have so many things I want to ask you.
    Newsweek reported, not so long ago, that in 1997 the United 
States uncovered a massive tunneling operation in North Korea. 
Now, when were you first made aware of this, if you were at 
all?
    Mr. Newsom. I was not made aware of that for several months 
after it was first made known in very closed circles.
    The Chairman. Well, that makes me nervous that there is an 
acknowledgement that it happened, which is what you have just 
done.
    Now, do you believe, sir, that North Korea's nuclear 
weapons program is indeed frozen?
    Mr. Newsom. I believe that we can verify that the 
facilities at Yongbyon are shut down. We have IAEA inspectors 
there. They are monitoring the 8,000 cans of rods, and so the 
reactor is not operational. So, that facility, which is the 
object of the agreement, is shut down, yes.
    The Chairman. I am not trying to be heavy-handed about it, 
but I want something exactly right, up-to-date in Kansas City 
included in what you are already going to send me in writing. 
It could be classified, if you want to do it. I would rather 
have a yes or no question, but we will see about that.
    Now, under section 602 of the Nuclear Non-Proliferation 
Act, the Secretaries of State and Energy have an obligation to 
keep this committee fully and currently informed--and I am 
quoting--with respect to proliferation issues. The law was 
broken with respect to North Korea, and the committee was kept 
in the dark for an extremely long period of time.
    Now, this has got to stop. Both of you are brand new 
Assistant Secretaries, and I am not trying to beat up on you 
and I will not because you are blameless in this matter. 
However, I am asking both of you if you will commit to me and 
this committee now that you will personally ensure that Senator 
Biden of Delaware and I and our designated staff, whom we may 
choose, will be kept fully and currently informed pursuant to 
section 602 of the Nuclear Non-Proliferation Act. Can I have 
your assurance on that?
    Ms. Gottemoeller. Yes, sir.
    Mr. Newsom. I am in an awkward position, Mr. Chairman, in 
that I have no responsibilities in that area under the 
reorganization. I am not involved now anymore in 
nonproliferation or related matters. What I can go do is get 
the senior person who now is involved in that to give you that 
commitment.
    The Chairman. Well, you can be of assistance to this 
committee by getting it for us.
    Mr. Newsom. I will go seek it.
    [The information requested follows:]
      topic: briefings pursuant to section 602(c) of the nuclear 
                      nonproliferation act of 1978
    The State Department takes very seriously and will continue to 
fulfill its responsibilities pursuant to section 602(c) of the Nuclear 
Nonproliferation Act of 1978 to keep you and the ranking minority 
member of the Senate Foreign Relations Committee ``fully and currently 
informed with respect to . . . the current activities of foreign 
nations; which are of significance from the proliferation standpoint.'' 
The State Department is prepared to commit to brief you accompanied by 
an appropriately cleared member of you staff whom you designate. In 
some cases the underlying intelligence is subjected to extremely 
stringent dissemination controls by the originating agency, and in such 
cases we have been authorized to brief only Members. In each case we 
will work with you and the originating intelligence agency to ensure 
that you are fully and currently informed consistent with section 
602(c), while making every effort with originating agencies to minimize 
the number of occasions on which information cannot be shared with 
staff.

    The Chairman. And I am going to repeat again that unless 
and until I get the information, these nominations are not 
going to move forward. I want to move them tomorrow if I can, 
but you have simply got to cooperate with me and not dodge the 
ball any further.
    My time is up. Go ahead.
    Senator Biden. Thank you.
    Mr. Chairman, I have a confession to make about 602, and I 
would like, if either are able to speak, to clarify this.
    As I understand it, the chairman and ranking member are to 
be briefed contemporaneously, but I do not believe--and I would 
ask staff to correct me on this or someone on your staff--we 
are able to have our staffs briefed, that we are able to send 
staff to be briefed. Is that correct?
    What I am trying to get at here is it is true, to state the 
obvious, that the chairman was not briefed. It is also true 
that on two occasions I was briefed. I think the breakdown here 
in part, Mr. Chairman, is that--and I happen to share your view 
that staff should be able to be briefed.
    The Chairman. Cleared staff.
    Senator Biden. Cleared staff. I mean specifically cleared 
staff at a very high level with Q clearance. I understand.
    By way of explanation for the record, it would be a 
slightly skewed picture to suggest that--if I let the record 
stand and suggest that I was not briefed. I was briefed. It is 
obviously more important the chairman be briefed than me be 
briefed. I assumed that you were as well.
    But I think what happened here was on those specific 
briefings--now, maybe there are others that I am unaware of--it 
has been the chair's position that cleared staff should be able 
to be briefed, and I think it has been the administration's 
position--correct me if I am wrong--that only Senators could be 
briefed. I was unaware of that in terms of the majority being 
briefed, which is obviously more important than briefing the 
minority, but I just want the record to show that on those two 
occasions I was briefed. The committee was briefed, quote/
unquote. The committee was not. I was as one of the two 
parties, and I think we had a little thing between a cup and a 
lip here, Mr. Chairman. We ought to get it straightened out 
obviously.
    The Chairman. Stop the clock. Start it over. I do not want 
this charged against Senator Biden's time.
    Senator Biden. At any rate, I thank the chair for that.
    Now, Senator Kerry had to leave, and he as me and Senator 
Feingold and others--as close as the chairman and I are, we are 
at odds on some substantive issues, not nearly as many as you 
think, but one of those substantive issues is the Comprehensive 
Test Ban Treaty. Now, the chairman has made very clear the 
conditions under which or the circumstances under which he is 
prepared to bring it up before the committee. And as we say in 
this body, we agree to disagree on that, but since he has the 
gavel, it is clear where the disagreement will lie.
    But I would like to ask a few questions, particularly to 
you, Eric, if I may. What are we doing to lessen the risk of 
nuclear war between India and Pakistan in the wake of last 
year's nuclear test and their continued missile test? What are 
we doing, the United States of America?
    Mr. Newsom. There has been an intensive process that was 
launched soon after those tests, and the heart of it is a 
series of bilateral discussions led by Deputy Secretary Talbot 
with opposite numbers in both those countries. These 
negotiations, these discussions are targeted at persuading 
India and Pakistan to adhere to the benchmarks that were set 
forth by the P-5 in Geneva and then later by the U.N. Security 
Council basically identically.
    Senator Biden. Well, how does India's and Pakistan's 
adherence to the Comprehensive Test Ban Treaty fit into this 
whole piece?
    Mr. Newsom. One of the most important benchmarks, a 
centerpiece benchmark, was to get their adherence to the 
Comprehensive Test Ban because it would require a permanent 
cessation of testing.
    Senator Biden. What good will this do? What is the 
significance of them not being able to test?
    You hear people say all the time that militaries in 
respective countries will not deploy nuclear weapons that they 
have not tested because they are worried about the reliability.
    What is the value in having India and Pakistan adhere to 
this Comprehensive Test Ban Treaty? How will it affect 
outcomes?
    Mr. Newsom. I think, Senator, you have to talk about that 
on two levels. At the technical level, prevention of further 
testing by them has got to have some impact on their level of 
confidence in the weapons designs. They tested them already. 
Clearly they felt a perceived need to have to test these 
weapons. They were not prepared to take on confidence untested 
designs. So, at the technical level, getting a CTB in place 
would increase the difficulties of them achieving levels of 
confidence that military people would want to have with a 
weapons design. They would not have done further tests.
    Senator Biden. In your view, are you confident--I know I am 
interrupting you, but so I understand this, in your view are we 
confident that had the Comprehensive Test Ban Treaty been 
signed by both 4 years ago, 2 years ago, would we have been 
able to detect a violation of that treaty?
    Back up. Would their testing that each country did be a per 
se violation of the treaty? Were they at such range and level 
that it would have violated the treaty had they been 
signatories?
    Mr. Newsom. Well, any test would have violated the treaty 
because the treaty allows for zero yield testing. So, any test 
of whatever dimension would have violated it.
    Senator Biden. So, it would have been a violation.
    Mr. Newsom. It would have been a violation of the treaty.
    Senator Biden. What degree of certainty do we have that had 
it been in place, we would have known without them announcing 
it that they, in fact, had tested it? Because, obviously, if 
they were signatories, they wouldn't announce they were going 
to test or that they had tested.
    Mr. Newsom. Well, we did detect all of the tests that they 
conducted.
    Senator Biden. I know this sounds very rudimentary, but it 
is important for the record. I am a very basic guy here. I have 
been doing this arms control stuff for 27 years, and one of the 
problems we have is, as a predecessor on this committee once 
said, we have a lot of nuclear theologians. We understand the 
jargon, but it is easily translatable. We do not often do it.
    So, the reason why it is important that the world community 
and we thought important for India and Pakistan to agree in the 
future to be part of the Comprehensive Test Ban Treaty is 
because nations that do not test usually do not deploy because 
they do not have the confidence in the systems. Therefore, if 
they agree not to test, it degrades their capacity to have 
confidence in nuclear weapons. Correct?
    Mr. Newsom. Yes. It is generally taken these days that a 
very simple nuclear design could be done without a test, and 
you probably would have some confidence it would go off. You 
might not have very much confidence on what its yield would be, 
what its effects would be, and your military would certainly 
want to conduct tests so they understood what this weapon would 
do.
    If you were at a more advanced level of warhead designs, 
going beyond just a simple fusion device, the requirements for 
testing go much higher because it is a much more complex 
operation that has to take place for this thing to do 
everything that it is supposed to do. That is said to be one of 
the most important security benefits of a CTB, that the 
inability to test inhibits the efforts of any would-be 
proliferator from taking a very simple design, in which they 
would probably not have high confidence, and increasing its 
complexity and then being able to test it to get levels of 
confidence----
    Senator Biden. If I can make an analogy, and I would like 
you to correct me if you disagree with this. In my view we have 
a vivid example of how easy it is for a young man or a woman in 
the United States to go to the Internet and learn how to make a 
pipe bomb. In the international community among military 
forces, it is in a relative sense almost as easy for a nation 
with any degree of scientific sophistication to make a 
rudimentary atomic bomb, weapon. But the difference between 
such a rudimentary weapon and a weapon that is used tactically 
or strategically in war or in the threat of war by a nation 
going from that unsophisticated device to a much more 
sophisticated device that would be needed in that realm is a 
difference in my view between a pipe bomb and plastic and how 
it is used. It is much more difficult to do.
    Is that a fair, rough, raw analogy?
    Mr. Newsom. That is certainly my understanding from a lot 
of discussions back during the CTB negotiating days, that one 
of the most important benefits of a complete cessation of 
testing would be that it would really raise the bar on 
developing more advanced warhead designs. You cannot ever say 
now, unfortunately, with technology out of the box, that you 
can prevent them from building this very simple design. As you 
say, it is the pipe bomb of nuclear weapons. But I would think 
any meaningful military political leadership would have to 
wonder what that thing would do and under what circumstances it 
would be of any value to them.
    Senator Biden. Mr. Chairman, may I ask one very brief 
followup on this topic?
    The Chairman. Sure.
    Senator Biden. We have sanctions now on India and on 
Pakistan, correct, with the exception of we lifted them 
relative to wheat and a wheat sale that we had? But there are 
sanctions on India and Pakistan now. Is that correct?
    Mr. Newsom. There have been some--Eximbank has been lifted 
and OPIC and TDA, but yes, most of the others remain in force.
    Senator Biden. In order to lift all sanctions, is it the 
administration's position that they have to sign this 
Comprehensive Test Ban Treaty?
    Mr. Newsom. Signing the Comprehensive Test Ban Treaty may 
well lead us to consider some further positive measures, but I 
do not believe that we would see that as sufficient to remove 
all sanctions because----
    Senator Biden. Absent signing the treaty.
    Mr. Newsom. Absent signing the treaty. And there are other 
of the important benchmarks which need to be achieved. 
Restraint on their missile activities, for example. So, in and 
of itself, their signing the CTB would be a very positive act, 
and if everything else was going well, we might want to 
reciprocate on a positive act. But I do not think that we would 
see that without the right kind of progress on the other 
benchmarks which are also extremely important, that that would 
justify complete removal.
    Senator Biden. Mr. Chairman, I thank you for the extra 
time. With your permission, I would like to ask unanimous 
consent that I be able to submit--I have--this will not 
surprise you, Mr. Chairman--another half a dozen questions on 
this subject on behalf of both Senator Kerry and myself. If I 
could submit those in writing to the committee.
    [See responses to additional questions in the appendix, 
page 33.]
    The Chairman. Well, as a matter of fact, we are going to 
keep the record open for a couple of days. Let us say 3 days 
for Senators, who would like to have been here but could not, 
to file their questions. And I have some to file myself.
    But I thank you very much for your interest in coming here 
today. Now, I do need some information from you, as we 
discussed earlier, and I will appreciate your haste in getting 
it to me.
    Your point, Senator Biden, about this business of 
designated people, staff members, Bud Nance ought to be cleared 
for anything. Hell, he was in the Navy for 38 years, skipper of 
the Forrestal and all the rest of it. I think we can trust him, 
do you not?
    Mr. Newsom. I would.
    The Chairman. I think he would be trustworthy and his 
designees on the staff. It is probable that I was getting my 
knees replaced at the time----
    Senator Biden. Mr. Chairman, I think it was--and let me say 
one other thing. Having in the good, old days chaired a very 
busy committee myself, I think what sometimes administrations, 
past and present, do not fully understand is the schedule of a 
chairman versus a ranking member is decidedly different. I 
would like to be busier again and be chairman. But the truth of 
the matter is that when I chaired the Judiciary Committee for 
years, over a decade, the Justice Department used to say they 
would brief me and the ranking member and not staff, and it was 
not practical because, quite frankly, I ended up having to do 
in those days a heck of a lot more, as you have to do a lot 
more than I do. So, maybe we can work it out.
    But I just wanted to make the point to you, Mr. Chairman, I 
truly think the administration thought they were--thought they 
were--meeting the goals of 602 because I remember going up to 
407 and being briefed on two occasions at the moment, I mean, 
urgent calls and insisting I come. I think one of those times 
at least you were in the hospital if I am not mistaken.
    The Chairman. There were rare days when I was not in the 
hospital.
    Senator Biden. That is true, Mr. Chairman.
    The Chairman. Well, thank you very much.
    There being no further business to come before the 
committee, we stand in recess.
    [Whereupon, at 4:02 p.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              


Responses of Assistant Secretary Eric D. Newsom to Questions Submitted 
                      by Senators Biden and Kerry

    Question 1. Stopping the proliferation of nuclear weapons is one of 
the main objectives of the CTBT. The nuclear tests last year by India 
and Pakistan--who are not signatories--forced many policy makers, 
including many members of the Senate, to reconsider the political and 
security benefits of the CTBT. However, it also drove home to many the 
importance of U.S. ratification of the CTBT, in order to increase the 
pressure on other nations to refrain from conducting any further 
nuclear tests. Please outline for us the importance of the CTBT to 
accomplishing U.S. nonproliferation objectives. How important is 
ratification of the CTBT to continued U.S. leadership in international 
efforts to stop the proliferation of nuclear weapons?
    Answer. The CTBT is a key element in accomplishing U.S. non-
proliferation objectives. On the one hand, it makes it much more 
difficult for non-nuclear weapon states to develop nuclear weapons in 
which they would have confidence. On the other hand, it is a further 
contribution by the nuclear weapon states in implementing their 
commitment to nuclear disarmament--a commitment made in the Nuclear 
Non-Proliferation Treaty, which entered into force in 1970, and 
reaffirmed in the course of the 1995 NPT Review and Extension 
Conference.
    The United States provided leadership during the negotiation of the 
CTBT, and President Clinton was the first to sign the Treaty when it 
was opened for signature in September 1996. U.S. ratification will be a 
strong endorsement of the key role the U.S. has played in pursuit of a 
CTBT and underscore the importance the U.S. attaches to nuclear 
disarmament and non-proliferation. The U.S. voice will carry much more 
weight in convincing others, including India and Pakistan, to ratify, 
so that the CTBT can enter into force, and in enabling the U.S. to 
continue to lead on such multilateral disarmament and nonproliferation 
efforts as the Fissile Material Cutoff Treaty. If the U.S. does not 
ratify the CTBT, other states--uncertain if we will follow through on 
our commitments--will be less likely to follow our lead in these other 
areas.

    Question 2. Please explain how ratification of the Comprehensive 
Nuclear Test Ban Treaty (CTBT) relates to the maintenance of U.S. 
leadership regarding the Non-Proliferation Treaty (NPT). Would other 
countries view U.S. failure to ratify the CTBT as non-compliance with 
Article VI of the NPT? Was there any specific invocation of the CTBT as 
a sign of our good faith in return for the non-nuclear weapons states 
agreeing to the indefinite extension of the NPT?
    Answer. A close link between the Nuclear Non-Proliferation Treaty 
and a test ban treaty has existed from the beginning. The NPT's 
preamble recalled the determination of the Parties to the Limited Test 
Ban Treaty to prohibit all nuclear weapon test explosions. One of three 
decisions agreed at the 1995 Review and Extension Conference was a 
document entitled ``Principles and Objectives for Nuclear Non-
Proliferation and Disarmament.'' That document identified as a key 
objective the conclusion of CTBT negotiations no later than 1996. 
Moreover, by tying the objective to a date, the NPT parties indicated 
the urgency attached to this goal.
    Thus, while no express link exists between the NPT or its 
indefinite extension and the CTBT, NPT parties have made clear that the 
continued health of the nonproliferation regime and their support for 
the NPT depends on steady progress towards nuclear disarmament. Banning 
nuclear testing is a key measure in that regard. The United States 
played a leadership role in both the indefinite extension of the NPT 
and in the negotiation of the CTBT. If the U.S. failed to ratify the 
CTBT, a treaty it was instrumental in bringing into existence, the U.S. 
would have great difficulty in maintaining its leadership on non-
proliferation, as NPT parties would question the U.S. commitment to its 
obligations under Article VI of the NPT.

    Question 3. Until the United States ratifies the CTBT, the Treaty 
cannot come into force. If there were prolonged U.S. failure to ratify 
the CTBT, what would the implications be for nuclear non-proliferation, 
aside from those related to Question 1? To what extent is the CTBT 
intended to buttress the NPT by giving non-nuclear weapon states the 
added assurance that their neighbors have foresworn all nuclear 
explosions? Would prolonged failure of the Treaty to come into force 
make such countries take a second look at whether to remain non-
nuclear?
    Answer. The United States has always recognized that the CTBT 
supports both non-proliferation and disarmament objectives. It will 
buttress the non-proliferation regime by adding another barrier to the 
development of nuclear weapons by potential proliferators. By providing 
an additional level of confidence to that provided by the NPT that 
states have given up nuclear weapon test explosions or any other 
nuclear explosions, it will help assure their neighbors that they are 
not developing nuclear weapons.
    Even in the absence of a CTBT that had entered into force, we and 
our allies will make it a high priority in our diplomatic efforts to 
ensure that no parties to the NPT abandon their non-proliferation 
commitments by developing nuclear weapons. Nevertheless, prolonged 
failure of the Treaty to come into force would gravely undercut the 
nonproliferation regime.
                   south asia--status of negotiations
    Question 4. The United States has been engaged in intense 
negotiations with the governments of India and Pakistan since their 
nuclear tests, to convince them to agree to sign the CTBT and abide by 
its obligations. In addition to making this commitment, what other 
steps must India and Pakistan take before the Administration will 
consider lifting U.S. sanctions? In your opinion, what are the 
prospects for the successful conclusion of these talks?
    Answer. Our long-term objective is universal adherence to the NPT, 
including India and Pakistan's participation as non-nuclear weapon 
states. In the meantime, we are working with both countries to prevent 
a nuclear and missile arms race in the region.
    In addition to CTBT adherence, we have focused most intensely on 
several objectives which can be met over the short and medium term:
  <bullet> moratorium on production of fissile material for nuclear 
        weapons and other explosive devices, pending conclusion of a 
        formal treaty; and constructive engagement in negotiations on a 
        FMCT;
  <bullet> restraint in missile and nuclear weapon programs;
  <bullet> controls meeting international standards on exports of 
        sensitive materials and technology.
    Our dialogue has yielded some progress:
  <bullet> Both governments--having already declared testing 
        moratoria--have given qualified commitments to adhere to the 
        CTBT by September 1999.
  <bullet> Both are working to upgrade their controls on sensitive 
        exports by drafting new legislation and regulations.
  <bullet> Both have withdrawn their opposition to, and agreed to 
        participate in negotiations on a Fissile Material Cutoff Treaty 
        in Geneva.
    We also welcomed steps by both countries to resume their high-level 
dialogue on the fundamental issues dividing them, including peace and 
security concerns and Kashmir. We found encouraging the successful 
summit meeting of the Indian and Pakistani Prime Ministers on February 
20-21 in Lahore, in which they committed their governments to intensify 
efforts to resolve the issues that have divided their countries.
    In recognition of this progress and to promote further positive 
steps, the U.S. relaxed some sanctions last November: e.g. Exim, OPIC, 
TDA, IMET. In light of Pakistan's dire economic straits, we also 
supported International Financial Institution lending to that country 
to the extent necessary to support a onetime IMF rescue package.
    We have told both India and Pakistan that we will ease sanctions 
further when they take concrete steps to meet the benchmarks.
    In general, Indian and Pakistani progress toward meeting our 
objectives has been slow and may be complicated by the election in 
India, but there has been some encouraging movement. We plan to 
continue our dialogue with both countries and remain hopeful that they 
will take steps such as the ones we have suggested that are designed to 
do what they themselves have said they want--to avoid an costly and 
destabilizing arms race in South Asia.

    Question 5. What U.S. efforts will be needed to get such countries 
as Israel and North Korea to ratify the Treaty? Are there any other 
countries whose ratification will remain in doubt even after the United 
States ratifies the Treaty?
    Answer. The most compelling action we can take to get such 
countries as Israel and North Korea to ratify the CTBT is to ratify the 
Treaty ourselves. Once we have taken that step we will have much more 
influence and credibility in urging others to join us in ratifying the 
Treaty.
    During the negotiations the U.S. worked closely with Israel to 
ensure that the CTBT would enhance, not harm Israel's security 
interests. We believe Israel realizes that the Treaty is in its 
interest and, assuming that we make good our own commitment to ratify 
the Treaty, will take appropriate action itself.
    Twenty-seven of the 44 required ratifications remain to be 
achieved, although several of these states have indicated that they 
plan to ratify in the next few months. It is likely that Russian and 
perhaps Chinese ratifications would follow U.S. actions. In any event, 
U.S. leadership should provide a stimulus for others to ratify.

    Question 6. The CTBT allows for a conference to determine how to 
bring the Treaty into force. Why does it matter whether the United 
States ratifies before that conference? What will the conference be 
able actually to do to bring the CTBT into force, if some nuclear-
capable states still have not ratified the Treaty?
    Answer. The article of the Treaty that provides for the conference 
(Article XIV) makes a clear distinction between states that have 
ratified the Treaty, which can make the decisions at the conference, 
and signatories, which can attend as observers. If the U.S. wishes to 
participate fully in the Article XIV conference and be part of the 
decision-making process, it must ratify the Treaty before the 
conference convenes.
    In our view, the conference can play an important role by 
sustaining international interest in and positive momentum toward 
speedy entry into force of the CTBT. Participants could adopt a final 
document emphasizing the value that the international community places 
on the Treaty's role in ensuring a world without nuclear explosions. 
They could establish a coordinated action plan to accelerate the 
remaining ratifications and facilitate early entry into force, 
including practical measures to assist governments in these efforts. 
The conference could also provide a valuable opportunity to underline 
the commitment of participants to preparing the CTBT verification 
system for near-term entry into force.
    The conference will not waive the-entry-into-force provisions, in a 
way that would permit the Treaty to come into force before all the 44 
states specified had ratified. Nor will it impose sanctions on non-
ratifiers.

    Question 7. Article XIV of the CTBT says that a conference may be 
held ``three years after the date of the anniversary of its opening for 
signature'' and annually thereafter, seemingly implying a four-year 
wait until the first conference. But countries are acting as though it 
will be held this fall, which will be three years after the Treaty was 
opened for signature. Does the negotiating record clarify the 
negotiators' intent? If so, please provide some specifics in that 
regard.
    Answer. Those involved in the negotiation of Article XIV of the 
CTBT clearly understand the Article to call for a conference three 
years after the Treaty was opened for signature if it has not yet 
entered into force. Thus a conference under Article XIV could take 
place any time after September 24, 1999.
    The states that have ratified the Treaty have informed the UN 
Secretary General as depositary of their belief that the Article XIV 
conference should be convened this fall, probably in October. The 
Secretary General has replied taking note of their belief. All are 
operating under the assumption that the conference should appropriately 
be held after September 24, 1999.

    Question 8. One problem with any arms control treaty is 
verification. How does the CTBT address that challenge? Will the 
International Monitoring System result in perfect verification? How 
will it assist U.S. monitoring of foreign nuclear tests?
    Answer. The CTBT includes a substantial verification regime. Its 
International Monitoring System (IMS) provides global coverage by 321 
seismological, radionuclide, hydroacoustic, and infrasound stations 
whose data can be used to detect, locate, and identify nuclear 
explosions in different physical environments. These stations are being 
linked by a Global Communications Infrastructure to send data to an 
International Data Center (IDC) in Vienna. The IDC will provide 
integrated data and analysis to all parties. Raw data will also be sent 
to the U.S. National Data Center to support our monitoring and 
verification capabilities. Once the Treaty enters into force, its 
mechanisms for confidence-building measures, consultation, 
clarification, and on-site inspection will provide new tools to resolve 
ambiguous events.

    Question 9. General Shelton and his four immediate predecessors as 
Chairman of the Joint Chiefs of Staff--going back all the way to the 
Reagan Administration--have all endorsed ratification of the CTBT. Why 
do they support ratification? Do they oppose nuclear testing? Or do 
they believe that U.S. nuclear testing would be extremely unlikely, 
even if the Senate were to reject the CTBT, and do they therefore 
support ratification as a means of holding other countries to the same 
ban on testing that we have imposed on ourselves since 1992?
    Answer. It is, of course, for the Chairmen to state their positions 
on nuclear testing. However, the most recent JCS posture statement says 
that one of the best ways to protect our troops and interests is to 
promote arms control, which can reduce the chances of conflict, lower 
tensions, generate cost savings, and encourage peaceful solutions to 
disputes.
    The statement also says that our efforts to lower the numbers of 
strategic nuclear weapons coincide with efforts to control testing of 
nuclear weapons, and that the JCS support ratification of the CTBT, 
with the safeguards package that establishes the conditions under which 
the United States would adhere to the Treaty.
    These safeguards, announced by President Clinton in August 1995, 
will strengthen our commitment in the areas of intelligence, monitoring 
and verification, stockpile stewardship, maintenance of our nuclear 
laboratories, and test readiness. The safeguards also specify 
circumstances under which the President, in consultation with Congress, 
would be prepared to withdraw from the CTBT under the ``supreme 
national interest'' provision in the unlikely event that further 
testing might be required. Paragraph 2 of Article IX of the CTBT 
recognizes the right of each State Party to withdraw from the Treaty if 
events related to the subject matter of the Treaty have jeopardized its 
supreme interests.
    The U.S. as a matter of policy continues to observe its nuclear 
testing moratorium, and the 1994 DOD Nuclear Posture Review said that 
no new-design nuclear warhead production was required. It makes sense, 
both in our own national interest and in the interest of nuclear 
stability, to hold others to this same standard by securing 
ratification and early entry into force of the CTBT. This would allow 
full implementation of the verification and compliance provisions, 
including on-site inspection, essentially freeze nuclear arsenals in 
their current relative positions, and eliminate the possibility of a 
new arms race.

    Question 10. How would U.S. national security interests be affected 
if we were to withdraw from the ABM Treaty?
    Answer. U.S. withdrawal from the ABM Treaty would have far-reaching 
and extremely negative consequences for the entire range of arms 
control issues between the U.S. and Russia. U.S. withdrawal would 
substantially complicate the process of strategic arms reductions 
initiated in START I and to be continued through START II and START 
III.
    Withdrawal from the ABM Treaty would have serious foreign and 
defense policy implications, which extend beyond our relationship with 
Russia. Such a decision would require very careful consideration, as 
our credibility as a party to existing and future treaties would be 
questioned. Such a step would concern our friends and allies who view 
the ABM Treaty as an important component of global strategic stability.
    Russia would clearly interpret withdrawal from the ABM Treaty as 
evidence that the U.S. is not interested in working towards a 
cooperative negotiation on the ABM Treaty and preservation of the hard-
won bipartisan gains of START. Our common goal should be to achieve 
success in negotiations on the ABM Treaty while also securing the 
strategic arms reductions available through START.
    Accordingly, any decision concerning withdrawal should be 
considered with the utmost caution, and not approached until after a 
serious attempt to negotiate any necessary ABM Treaty amendments to 
deploy a limited NMD. Indeed, the Treaty itself recognizes that the 
strategic environment may change, requiring the Treaty to be adapted to 
evolving security circumstances. We have modified the ABM Treaty in the 
past, and I believe we can reach agreement on any necessary changes for 
deployment of a limited NMD. At this time, Treaty withdrawal is an 
unnecessary and dangerous action.

                                  <all>

</pre></body></html>
